<html>
<title> - OVERSIGHT HEARING ON MILITARY RECRUITING</title>
<body><pre>[Senate Hearing 110-503]
[From the U.S. Government Printing Office]



                                                       S. Hrg. 110-503
 
                OVERSIGHT HEARING ON MILITARY RECRUITING

=======================================================================

                                HEARING

                               before the

                       SUBCOMMITTEE ON PERSONNEL

                                 of the

                      COMMITTEE ON ARMED SERVICES
                          UNITED STATES SENATE

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                            JANUARY 31, 2008

                               __________

         Printed for the use of the Committee on Armed Services






                     U.S. GOVERNMENT PRINTING OFFICE

44-450 PDF                 WASHINGTON DC:  2008
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office  Internet: bookstore.gpo.gov Phone: toll free (866)512-1800
DC area (202)512-1800  Fax: (202) 512-2250 Mail Stop SSOP, 
Washington, DC 20402-0001



                      COMMITTEE ON ARMED SERVICES

                     CARL LEVIN, Michigan, Chairman

EDWARD M. KENNEDY, Massachusetts     JOHN McCAIN, Arizona
ROBERT C. BYRD, West Virginia        JOHN WARNER, Virginia,
JOSEPH I. LIEBERMAN, Connecticut     JAMES M. INHOFE, Oklahoma
JACK REED, Rhode Island              JEFF SESSIONS, Alabama
DANIEL K. AKAKA, Hawaii              SUSAN M. COLLINS, Maine
BILL NELSON, Florida                 SAXBY CHAMBLISS, Georgia
E. BENJAMIN NELSON, Nebraska         LINDSEY O. GRAHAM, South Carolina
EVAN BAYH, Indiana                   ELIZABETH DOLE, North Carolina
HILLARY RODHAM CLINTON, New York     JOHN CORNYN, Texas
MARK L. PRYOR, Arkansas              JOHN THUNE, South Dakota
JIM WEBB, Virginia                   MEL MARTINEZ, Florida
CLAIRE McCASKILL, Missouri           ROGER F. WICKER, Mississippi

                   Richard D. DeBobes, Staff Director

              Michael V. Kostiw, Republican Staff Director

                                 ______

                       Subcommittee on Personnel

                 E. BENJAMIN NELSON, Nebraska, Chairman

EDWARD M. KENNEDY, Massachusetts     LINDSEY O. GRAHAM, South Carolina
JOSEPH I. LIEBERMAN, Connecticut     SUSAN M. COLLINS, Maine
JIM WEBB, Virginia                   SAXBY CHAMBLISS, Georgia
CLAIRE McCASKILL, Missouri           ELIZABETH DOLE, North Carolina

                                  (ii)





                            C O N T E N T S

                               __________

                    CHRONOLOGICAL LIST OF WITNESSES

                Oversight Hearing on Military Recruiting

                            january 31, 2008

                                                                   Page

Bostick, MG Thomas P., USA, Commanding General, U.S. Army 
  Recruiting Command.............................................     4
Kilkenny, RADM Joseph F., USN, Commander, Navy Recruiting Command     9
Vautrinot, Brig. Gen. Suzanne M., USAF, Commander, Air Force 
  Recruiting Service.............................................    13
Tryon, Maj. Gen. Richard T., USMC, Commanding General, Marine 
  Corps Recruiting Command.......................................    17
Britton, SSGT James M., USMC, Active Duty Recruiter..............    32
White, MSGT David B., USAF, Active Duty Recruiter................    32
Brummer, MCPO Travis P., USN, Active Duty Recruiter..............    32
Webb, SFC Ricky Lee, USA, Active Duty Recruiter..................    32

                                 (iii)


                OVERSIGHT HEARING ON MILITARY RECRUITING

                              ----------                              


                       THURSDAY, JANUARY 31, 2008

                               U.S. Senate,
                         Subcommittee on Personnel,
                               Committee on Armed Services,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 9:33 a.m. in 
room SR-232A, Russell Senate Office Building, Senator E. 
Benjamin Nelson (chairman of the subcommittee) presiding.
    Committee members present: Senators E. Benjamin Nelson, 
Webb, McCaskill, and Chambliss.
    Committee staff member present: John H. Quirk V, security 
clerk.
    Majority staff members present: Gabriella Eisen, counsel; 
and Gerald J. Leeling, counsel.
    Minority staff members present: Diana G. Tabler, 
professional staff member; and Richard F. Walsh, counsel.
    Staff assistants present: Jessica L. Kingston and Ali Z. 
Pasha.
    Committee members' assistants present: Frederick M. Downey, 
assistant to Senator Lieberman; Andrew R. Vanlandingham, 
assistant to Senator Ben Nelson; Gordon I. Peterson, assistant 
to Senator Webb; Stephen C. Hedger, assistant to Senator 
McCaskill; Jennifer Cave, assistant to Senator Warner; Lenwood 
Landrum, assistant to Senator Sessions; Mark J. Winter, 
assistant to Senator Collins; and Clyde A. Taylor IV, assistant 
to Senator Chambliss.

   OPENING STATEMENT OF SENATOR E. BENJAMIN NELSON, CHAIRMAN

    Senator Ben Nelson. Good morning. The subcommittee will 
come to order.
    Senator Graham, the ranking member of this subcommittee, is 
unable to be with us this morning and so Senator Chambliss has 
graciously agreed to take his place today. This brings back 
very pleasant memories. I was the ranking member when Senator 
Chambliss was the chairman of this subcommittee. We worked very 
well together then as a team and I know we will continue to do 
so. Thank you for being here today, Senator.
    Our hearing today is focused on military recruiting. 
Recruiting and retention is the core of this subcommittee's 
business and successful recruiting is critical to the continued 
success of the All-Volunteer Force. Everything that we do on 
this subcommittee is designed to care for our servicemembers 
and their families. Our goal is to make military service an 
attractive option to all young Americans and a desirable career 
for those who choose to serve and continue to serve.
    I welcome our witnesses here today. We're privileged to 
have on our first panel the commanders of each Service's 
recruiting command: Major General Bostick, the Commanding 
General of the U.S. Army Recruiting Command; Rear Admiral 
Kilkenny, Commander of the Navy Recruiting Command; Brigadier 
General Vautrinot--I hope I said that close.
    General Vautrinot. ``VOE-tri-noe,'' sir.
    Senator Ben Nelson. ``VOE-tri-not,'' ``VOE-tri-noe.''
    --Commander of the Air Force Recruiting Service; and Major 
General Richard Tryon, Commanding General, Marine Corps 
Recruiting Command. We're delighted to have all of you with us 
this morning.
    Our second panel consists of military recruiters and I'll 
introduce them when their panel is seated following the 
testimony of the first panel.
    Recruiting is a challenging duty even in the best of times. 
These are not the best of times for our military recruiters. 
I'm aware that the pool of young Americans from which our 
recruiters recruit is shrinking. Only about three of ten young 
Americans are qualified for military service for varying 
reasons, including medical conditions, criminal records, lack 
of education, and low aptitude test scores. Declining high 
school graduation rates and obesity are national issues that 
directly impact the national security of the United States 
because they limit those who are eligible to serve in the 
military.
    We also face a significant challenge in recruiting medical 
officers, which we need in order to provide for our troops. I 
understand that all Services have met their Active Duty 
recruiting goals last year and that they're doing well so far 
this year. But I know that this has been a particularly tough 
time for the Army, and I'll be interested in hearing about the 
experiences from all the Services.
    I know the Army has increased the number of waivers for 
such things as medical conditions and criminal convictions. I 
also believe that the Army is accepting more enlistments of 
soldiers scoring in category 4 of the Armed Services Vocational 
Aptitude Battery (ASVAB). We'd certainly be interested in 
hearing more about this.
    This subcommittee has and will continue to be responsive to 
your requests for legislation to achieve your recruiting 
mission and I hope that you'll let us know if there is anything 
else that you need from Congress to make your mission a little 
easier.
    Senator Chambliss, perhaps you have an opening statement.

              STATEMENT OF SENATOR SAXBY CHAMBLISS

    Senator Chambliss. Thank you very much, Mr. Chairman. It's 
an honor to be here with you once again at the head of the 
table at this important hearing of the Personnel Subcommittee 
on military recruiting. Senator Graham asked me to fill in for 
him. He's otherwise occupied with a military hero and expresses 
his regret to you and to our witnesses that he could not be 
here. But I'm certainly glad to be with our members of the 
Armed Forces who are in charge of making sure that we continue 
to have our fair share of the very finest young men and women 
that America has to offer in every branch of the military.
    I enjoyed our partnership during the 108th Congress, when I 
was chairman and you were ranking member. We had a lot of good 
times and accomplished an awful lot of positive things. We also 
paid an awful lot of attention then, as you have done since, to 
our men and women of the Armed Forces who have sacrificed so 
much and have performed so magnificently in the global war on 
terrorism.
    The changes we helped bring about during those 2 years were 
many and included substantial pay raises and increased bonuses 
for military personnel, reform of the survivor benefit plan to 
eliminate the old two-tier system for payment of benefits, 
elimination of many of the barriers to the concurrent receipt 
of both military retired pay and veterans disability 
compensation, expansion of TRICARE coverage to reservists; 
significant increases to servicemembers' group life insurance; 
and other benefits for the survivors of these brave men and 
women who die while serving on Active Duty.
    I recall our field hearings at both Robins Air Force Base 
in Georgia as well as Offutt Air Force Base in Nebraska, where 
we heard directly from military spouses and families about the 
challenges they encounter in their daily lives. As you, I, and 
Senator Webb know, the families make just as many sacrifices as 
the men and women who serve on Active and Reserve duty.
    I congratulate you and Senator Graham for continuing that 
tradition and also on the enactment of the National Defense 
Authorization Act for Fiscal Year 2008, which was signed into 
law a few days ago, and for the many benefits and improvements 
in quality of life for servicemembers, including the landmark 
bipartisan legislation to aid wounded warriors and their 
families.
    I join you in welcoming the witnesses today and look 
forward to hearing from these senior leaders and from the line 
recruiters on our second panel. I assure our witnesses that I 
and all the members of this subcommittee appreciate your 
challenge. We place enormous value on your efforts in 
sustaining the All-Volunteer Force or, as you have said in your 
written statements, the All-Recruited Force.
    I conclude my remarks here, but I do want to thank each of 
you and all members of your recruiting teams for the sacrifices 
and dedication you bring to this vital mission.
    Thank you very much, Mr. Chairman.
    Senator Ben Nelson. Thank you.
    Senator Webb, do you have some comments?
    Senator Webb. Mr. Chairman, I have a conflicting hearing on 
the Senate Foreign Relations Committee. We have a full 
committee hearing this morning with respect to the situation in 
Afghanistan. But I wanted to come down here and reaffirm not 
only my support, but also my very deep interest in these 
issues.
    Speaking of military families, I grew up in the military. 
My father was a career military officer. I spent many years 
working on these issues inside the Pentagon. We have a strong 
interest on our staff in working toward different sorts of 
analysis to try to ensure that we get the highest quality of 
people coming into our military with the most efficiency.
    I'm going to have to leave here in a few minutes, but I'm 
leaving two staff members behind and I would ask consent if we 
could submit a series of questions at the end of this hearing 
that we could get responses to.
    Senator Ben Nelson. Without objection.
    Senator Webb. We look forward to working on these issues in 
some detail in the future.
    Senator Ben Nelson. Thank you, Senator. Thank you for being 
here. I think we all understand conflicts. We have to be at two 
different places at the same time and try to do that. Thank 
you.
    I think what we'll do is we'll just go ahead and start with 
General Bostick and we'll move this direction with this panel, 
and the next panel we'll move the other direction, if that 
would meet with your satisfaction.
    General Bostick?

  STATEMENT OF MG THOMAS P. BOSTICK, USA, COMMANDING GENERAL, 
                  U.S. ARMY RECRUITING COMMAND

    General Bostick. Good morning, sir. Chairman Nelson, 
Senator Chambliss, and distinguished members of this 
subcommittee: Thank you for the opportunity today to talk about 
Army recruiting. I also want to thank you for all of your 
support throughout this past year on the many initiatives that 
we have to attract the best young men and women to our Army.
    I'm very proud of our soldiers, our civilians, and our 
families that are involved in the recruiting mission, both 
within my command and outside of my command. As you pointed 
out, the All-Volunteer Force is actually an All-Recruited 
Force. The mission of manning this force is one that is not a 
challenge just for the Army, but a challenge for our Nation.
    We continue to face an environment that is marked by 
decreasing influencer support and the lowest propensity to 
serve in two decades. Nonetheless, last year the Active Army, 
the Army Reserve, and the Army National Guard combined to 
enlist 170,000 soldiers during a persistent period of conflict. 
This is the size of the entire city of Fayetteville, NC, or 
Newport News, VA. I'm confident that we will again achieve our 
mission this year and in so doing we will strive to meet 
Department of Defense and Department of the Army goals for high 
school diploma graduates and aptitude.
    We're recruiting men and women who are raising their right 
hand and volunteering to serve during a period of combat. They 
will join the best Army in the world. Many will deploy and 
serve in harm's way. Some of these soldiers will have General 
Equivalency Degrees (GEDs). Some will have waivers. But all 
will be qualified to serve in our Army.
    I feel very comfortable about the soldiers in our Army. We 
are very careful in who we select to serve. Some have made 
mistakes in the past, but have demonstrated that they can serve 
this Nation proudly. The more serious waivers go through 10 
levels of decisionmaking, ultimately arriving on the desk of a 
general officer to approve or disapprove that waiver.
    The Army is reviewing the long-term impact of the lower 
number of high school diploma graduates and the increased 
waivers on the effectiveness of an Army at war. But in talking 
to soldiers and drill sergeants and our Army leaders, there's a 
common theme that the quality and the skills of our initial 
entry training graduates remain high.
    We're working several initiatives to increase our recruiter 
efforts. All of our soldiers are equipped with laptop computers 
and on that computer we have a system called Future Soldier 
Remote Reservation System. Today, recruiters like Sergeant 
First Class Webb can go into the home of a parent and a 
prospect and they can sit in the confines of that home and 
decide what his specialty is going to be, what his bonuses will 
be. They can lock that specialty in for a period of 7 days and 
buy in with the parents, the family, and friends, buy in that 
decision together.
    We're working hard in the area of education that you 
mentioned with several programs, including one called March to 
Success. Many potential soldiers that are high school graduates 
and even some college students have a tough time with our test. 
March to Success is a free of charge online test preparation 
program that assists our prospects with the ACT, the SAT, and 
the Army military tests. Over 95,000 signed up for this March 
to Success program last year.
    In addition to that, we instituted a tutor program, one-on-
one tutoring where we're asking the people of America, the 
citizens of America, to stand up and support this Nation by 
helping to tutor young men and women that are interested in 
joining our Army.
    We continue to develop and foster partnerships with 
business and industry through a program called Partnership for 
Youth Success, where our young men and women that sign up to 
the military also sign up for a guaranteed interview with that 
company. We want to continue to partner with America. Today we 
have over 260 in the Partnership for Youth Success program.
    As you pointed out, America is also challenged by an 
epidemic of obesity. To address this challenge, we developed a 
program called the Assessment of Recruiter Motivation and 
Strength (ARMS) program, where we recognize that some young men 
and women are going to be 2 to 3 percent over body fat and 
we're going to bring them into the Army. As long as they meet 
and can pass this ARMS test, we're going to put them into basic 
training and we'll give them a year to lose the weight. We're 
finding that their attrition rate is no different than the 
other soldiers that we bring in.
    We're going to roll out next month the Army Advantage 
Program, which will provide our soldiers an opportunity to buy 
a house or start a small business later on in life.
    We created a Super Leads Program. Since the Super Leads 
Program started, we've made over 7.6 million phone calls. Those 
are phone calls that we've taken off the backs of our soldiers, 
for them to have to make, and that gives them more time.
    We are transforming in the way that we recruit. We've added 
automation. We've changed our structure. We've looked at our 
processes, all of this to help our recruiters to save time, so 
that they can tell their story in the home towns across 
America.
    We know that our recruiters are ambassadors for the Army 
and they take this responsibility very seriously. They are 
committed to accomplishing the mission. They're committed to 
maintaining the warrior ethos. They're committed to maintaining 
their Army values and accomplishing this mission.
    I look forward to the rest of the discussion today. Thank 
you for the opportunity to be here.
    [The prepared statement of General Bostick follows:]
            Prepared Statement by MG Thomas P. Bostick, USA
    Chairman Nelson, Senator Graham, and distinguished members of the 
committee, thank you for providing me the opportunity to appear before 
you today on behalf of the Army's recruiting force. I also want to 
thank you for supporting our initiatives to improve incentives and 
bonus programs to attract the very best soldiers. I take tremendous 
pride in saying that today's All-Volunteer Force is actually an ``all-
recruited'' force and they are proudly representing our Nation 
throughout the Army.
    In fiscal year 2005, the Army did not achieve its regular Army 
recruiting mission by accessing 73,000 of its required 80,000 mission. 
Additionally, the Army achieved 19,400 of the required 22,175 Reserve 
mission. The U.S. Army Recruiting Command (USAREC) was then reinforced 
with additional manpower, resources, and incentives, and as a result, 
enlisted 13,000 more soldiers for the regular Army and Army Reserve in 
fiscal year 2006 than in fiscal year 2005 to achieve the 80,000 regular 
Army mission and 99 percent of the 25,500 Army Reserve mission. We 
built upon this success in fiscal year 2007 to achieve both the 80,000 
Regular Army and 26,500 Army Reserve missions recruiting an additional 
107,000 soldiers for our Army. The regular Army, Army Reserve, and 
Army National Guard combined to enlist 170,000 soldiers into our Army 
during a period of persistent combat. We knew what we needed to do, and 
clearly made the right adjustments at the time. However, adequate 
resources are not always enough to ensure success.
    Fiscal year 2008 will be another challenging recruiting year. We 
have the support of the total Army as we work to achieve the fiscal 
year 2008 mission of 80,000 accessions for the regular Army and 26,500 
accessions for the Army Reserve. These accession missions support 
reaching established Army end-strength goals. We are on glide to 
achieve our 80,000 accession mission for the regular Army; however, we 
are slightly behind established monthly objectives for the Army 
Reserve. We are aggressively working with the Army leadership to 
develop the way ahead to achieve our Army Reserve mission for this 
year.
    We have a committed recruiting force and the necessary tools to 
achieve our recruiting missions this year. We need your continued 
support to help the Army mobilize the Nation behind this effort.
                         recruiting environment
    For the first time since the implementation of the All-Volunteer 
Force, we are recruiting during a period of protracted combat. Today's 
recruiting environment is incredibly challenging. Less than 3 out of 10 
of our Nation's youth are fully qualified for service in the Army due 
to disqualifying medical conditions, criminal records, lack of 
education credentials or low aptitude test scores. The Army competes 
head on with industry, the economy, and with higher education for the 
same high-quality youth. Today, parents and influences are less likely 
to encourage their family members and other young adults to join the 
military. Propensity, the desire to enlist in the Armed Forces, is at 
its lowest point in two decades.
    Despite the challenges in the current environment, 170,000 
Americans stepped forward to enlist in the regular Army, Army Reserve, 
and Army National Guard last year. In my conversations with commanders 
throughout the Army, it is clear that our soldiers are proudly serving 
with distinction. They are also re-enlisting in large numbers, 
particularly those in combat. No amount of money would be enough to 
convince them to continue to serve, if they did not believe in what 
they were doing. We have the best trained, best equipped, and best led 
Army in the world. Our volunteer soldiers are re-enlisting because they 
believe in their Nation, they believe in their flag, and they believe 
in each other. Each of these soldiers became heroes for this Nation the 
day they decided to enlist in our Army.
    Recent congressional incentives for recruiting such as the $2,000 
referral bonus program and increased enlistment bonus caps have 
provided the Army the necessary tools to attract the men and women who 
want to serve our great Nation during these challenging times. There 
are many good news stories that do not make it to the evening news, so 
we rely heavily on important public influences, including strong 
support from Members of Congress, to help us tell the Army Story. I am 
confident that, with your continued support, we will continue to meet 
the needs of our All-Volunteer Army.
                                funding
    The administration, Congress, and the Department of Defense with 
the Army and its senior leadership have provided Recruiting Command the 
support we have asked for to accomplish our mission. Fiscal year 2008 
funding levels allow the Command to satisfy all recruiter support 
requirements. When additional resource requirements are identified and 
made known to the Senior Army leadership, they have taken immediate 
action to meet those requirements. The challenge is often one of 
timing. As the environment changes, we must be able to adapt quickly. 
Train-up of new recruiters and the development of new advertising, for 
example, require long lead times. We must continue to improve our 
understanding of the market and the recruiting environment, and 
implement those actions necessary to mitigate risks to the mission.
                             transformation
    We are constantly innovating and improving our recruiting programs 
to address changes in our market. Ongoing transformation efforts within 
USAREC span across four major areas: policy and process, personnel 
selection and training, quality of life initiatives and force 
structure. USAREC is in the final stages of an extensive force 
structure transformation as a result of significant changes in market 
trends and population demographics. As part of this transformation, 
USAREC realigned and/or restructured its 41 enlisted recruiting 
battalions and their respective boundaries.
    The purpose of this realignment was to make the battalion spans of 
control more consistent across the command. This corrected existing 
imbalances in mission responsibilities by reducing the size of some 
large battalions and added responsibility to some smaller battalions. 
As a result of this realignment, four battalion headquarters were 
recommended for inactivation to the Department of the Army. Three of 
the inactivation recommendations were approved, with the final decision 
pending.
    In addition to boundary realignments, we formed a Special Missions 
Brigade to handle the administration, logistics and special missions 
for all subordinate brigades, so that the rest of the command could 
focus on training, leading, and mission accomplishment. We formed a 
Medical Recruiting Brigade to provide the necessary command and 
control, and focus necessary for our five medical recruiting 
battalions.
    At the conclusion of these transformation initiatives, USAREC will 
have five enlisted recruiting brigades consisting of 38 recruiting 
battalions, a Special Missions Brigade, and a Medical Recruiting 
Brigade. We believe this force structure gives us the best opportunity 
to achieve our assigned missions in this challenging recruiting 
environment.
                                quality
    All soldiers serving in our Army are qualified to serve. We strive 
to achieve the goals of the Department of Defense and the Department of 
the Army, which are 90 percent high school diploma graduates (HSDGs), 
60 percent test score category I-IIIA, and with no more than 4 percent 
test scoring category IV. The Army does not accept applicants scoring 
in the lowest category on the Armed Services Vocational Aptitude 
Battery (ASVAB), test score category V. In fiscal year 2007, the 
regular Army met Department of Defense goals for category I-IIIA and 
Category IV, but fell short in the area of HSDG, achieving 79 percent. 
The Army Reserve met Department of Defense goals for Category IV but 
fell short in the areas of HSDG and category I-IIIA achieving 86 
percent and 57 percent respectively.
    Field commanders are very pleased with the men and women now 
serving in their formations, some of whom are not HSDGs or may have 
received a waiver to serve in our Army. While the Department of Defense 
goal for HSDGs is 90 percent, the national average for high school 
graduation is 70 to 80 percent. In some urban areas of the country, the 
graduation rate is less than 50 percent.
    The Secretary of Education has called the graduation rates in this 
country a ``Silent Epidemic.'' High school graduation rates are of 
significant concern to the Army. Additionally, there are those who want 
to serve in our formations, who have graduated from High School but 
cannot pass the ASVAB. The Army has established education programs such 
as March2Success and our GED Education Plus Program to provide an 
academic second chance for the youth of America to give them an 
opportunity to serve in our Army.
    Another significant issue that is affecting recruiting is the 
emerging obesity epidemic in the country. More and more of our youth 
are not exercising and have poor eating habits. We have developed a 
program called the Assessment of Recruit Motivation and Strength test 
which will allow those who pass and are a few percentage points over 
Army accessions body-fat standards to serve. They have up to 1 year to 
lose the weight from the time they ship to Basic Combat Training. We 
began this program across the country in April 2006 and initial results 
indicate these soldiers are performing well and in a similar manner as 
those not participating in the program.
    All of the soldiers that we recruit are qualified to serve in our 
Army. I have witnessed their outstanding performance first-hand during 
my own deployment to Iraq, and commanders in the field are extremely 
proud of their soldiers.
                                waivers
    We have a very solid process for reviewing and approving all 
waivers. We place special emphasis in carefully screening those 
applicants who have been charged with a felony. Conduct waivers for 
applicants with felony charges are approved at the General Officer 
level. These requests are reviewed by 10 different decisionmakers to 
determine whether or not it is in the best interests of our Army to 
allow the applicant the opportunity to serve.
    We are not recruiting hardened criminals. Those with felony 
convictions made the kind of mistake that a general officer has 
determined does not indicate deep rooted discipline or values issues 
and the person has demonstrated that they have overcome their prior 
mistakes.
    We are seeing an overall increase in waivers. We believe this 
increase is partly a result of changes in society, changes in policy 
and our improved processing procedures. In the past few years, we 
streamlined the waiver process from weeks to days, providing recruiters 
with less reason to turn away applicants who need waivers and resulting 
in more applicants staying with the Army enlistment process.
    We conduct a very thorough examination of the facts, circumstances, 
and the legal disposition of the charges prior to allowing individuals 
to enlist in our Army with a conduct waiver. These men and women are 
raising their hand, asking for a chance to serve their country. They 
are asking to not only be a productive member of society, but are 
willing to defend the Constitution of the United States on behalf of 
their fellow citizens. They enter our Army, grow and mature as a result 
of Army training, teamwork, exposure to Army values and to the warrior 
ethos. I am confident that our process is sound and in the best 
interest of the applicant, the Army and our Nation.
    In our continuing efforts to define what constitutes a ``quality'' 
soldier, the Army is evaluating whether soldiers enlisting with waivers 
perform on par with non-waivered recruits over time. We expect 
preliminary results of this research effort in September 2008.
                  recruiter misconduct and impropriety
    Recruiters are the Army's ambassadors across the Nation and hold a 
position of trust with the young people and influencers in our 
communities. There is a small percentage of the force that violates 
that trust. As a result, we take very seriously allegations of 
recruiting misconduct and impropriety. We investigate every allegation 
and take appropriate action, as necessary. In fiscal year 2007, 185 of 
our 8,200 recruiter force had substantiated allegations.
    We have a multi-pronged approach for preventing recruiter 
misconduct: starting with the recruiter selection process, a 
prescriptive training program, routine standard inspections and 
enforcement down to recruiter level, and reinforcement of discipline 
through command information and command presence on a weekly basis. We 
have instituted a ``buddy system,'' where a recruiter must be 
accompanied by another recruiter when in the company of an applicant of 
the opposite gender. Our leadership is required to conduct proactive 
and regular discussions of Army Values and what they mean in a 
recruiting environment. We also schedule an annual Army Values/Safety 
Stand-down Day with all command personnel, to reinforce what it means 
to be an American soldier.
    Each year, our recruiters have millions of contacts with the 
American public. Our ability to recruit successfully depends upon the 
public's confidence in our commitment to recruiting with integrity.
                           medical recruiting
    A very important part of our mission is to recruit medical 
professionals for our Army. In 1995, the USAREC began recruiting all 
medical professionals. Today, our medical recruiting force is made up 
of enlisted professional recruiters, enlisted medical soldiers, and 
officers from the Medical Service Corps, Nurse Corps, and Specialist 
Corps. We also engage both regular Army and Army Reserve health care 
professionals to assist in our recruitment efforts.
    We have made dramatic changes in how we execute our Medical 
Recruiting mission over the past several years. On October 2, 2007, we 
activated a Medical Recruiting Brigade Headquarters to provide command 
and control over our five Medical Recruiting Battalions. This effort 
will ensure we have the right levels of emphasis and expertise working 
this critically important mission. Initial results of this 
transformation have been positive. We are ahead 122 accessions compared 
to our performance over the same time period last year. This remains 
one of our most challenging areas, but we are making significant 
progress.
    We continue to work with the Department of the Army Office of the 
Surgeon General to ensure the Army offers competitive benefits to 
encourage today's medical professionals to explore the challenges and 
rewards of Army service. We appreciate your continued support of our 
medical recruiting programs.
                      recruiter access to schools
    The No Child Left Behind Act provided Armed Forces recruiters 
access to student recruiting information and the same access to 
students enjoyed by colleges and prospective employers. Under current 
legislation, however, the military can be singled out when students or 
parents ``Opt-Out'' from having their contact information released to 
the military. In the same schools, there is no opt-out option against 
postsecondary schools or prospective employers receiving contact 
information. In addition, there is no established timeframe for a 
school to provide the student information upon request by the military 
recruiting services. We have instances where schools have promised 
repeatedly to provide the list, but ultimately give it to our 
recruiters too late in the year to be of much use. We desire the 
opportunity to tell the Army story to young adults and let them decide 
for themselves whether or not service in our Army is the right choice 
to help them reach their full potential. Access to our Nation's schools 
and student information is critical to this effort. We need your help 
to ensure all our Nation's youth have the opportunity to hear what the 
Army has to offer.
                               conclusion
    I am confident that our recruiters will maximize the resources you 
have given them in order to achieve our mission. While public support 
for our soldiers remains strong, we need more Americans to step forward 
and serve our Nation, a nation at war. I thank you for your commitment 
to assist Army recruiting, and ask for your continued support to 
encourage Americans to answer our Nation's call to duty.
    Thank you again for the opportunity to appear before you today and 
I look forward to answering your questions.

    Senator Ben Nelson. Thank you, General.
    Admiral Kilkenny?

  STATEMENT OF RADM JOSEPH F. KILKENNY, USN, COMMANDER, NAVY 
                       RECRUITING COMMAND

    Admiral Kilkenny. Mr. Chairman, distinguished members of 
the Personnel Subcommittee: I am extremely grateful for the 
opportunity to appear today to update you on the Navy's total 
force recruiting. Despite an increasing challenge in the 
environment as you alluded to, sir, I'm pleased to report that 
my outstanding team of 7,500 total force recruiters is 
succeeding in quality and quantity.
    Today we are successfully competing with America's top 
employers, colleges and universities, Federal agencies, and our 
fellow uniformed Services for the sharpest minds of our 
millennial generation, those with the highest aptitudes and 
natural leadership skills who are most likely to succeed and 
excel. We're reaching out to a new generation of potential 
recruits whose primary social lifestyles are experienced 
through the Internet, instant messaging, text messaging, and 
interactive social networking Web sites like FaceBook and 
MySpace. Millennials experience the world on a global scale 24/
7. We must use modern tools and methods to reach today's youth 
and let them know the exceptional opportunities awaiting them 
in the United States Navy.
    Military service is often not first among career options 
millennials consider. Today's influencers, most of whom never 
served, are often not inclined to steer them toward a military 
option. We are responding to this challenge by meeting 
millennials on their terms, appealing to their search for 
something more, their sense of service, their spirit of 
volunteerism, and their interest in the world around them.
    Fiscal year 2007 marked the 9th consecutive year we met 
overall Active component accession mission, attaining 101 
percent of our enlisted accession goal, with 93 percent high 
school diploma and 73 percent in test categories I through III-
Alpha on the Armed Forces Qualification Test. This year to date 
we have attained 112 percent of the first quarter accession 
goal, with 92 percent high school diploma grads and 75 percent 
test score categories I through III-Alpha.
    This past year we made significant progress on our number 
one recruiting priority, Navy Special Warfare and Special 
Operations. We made dramatic inroads in recruiting and 
retaining high performing youths in our most elite programs by 
hiring former SEALs and Special Operations personnel to assist 
in selecting, testing, educating, and mentoring new recruits. 
Requiring candidates to pass the physical screening test before 
accessing them has contributed to improving the pass rate from 
a historic norm of 28 percent to 78 percent in just 1 year.
    A $40,000 enlistment bonus has proven an exceptional 
incentive and we thank you for your staunch support for such 
critical enlistment tools.
    We achieved 100 percent of our Reserve component accession 
goal in 2007, compared to 87 percent the previous year. Much of 
the fiscal year 2006 shortfall was in ratings directly 
supporting the global war on terror. By realigning the 
proportion of non-prior service sailors accessed into global 
war on terror ratings through our new accession training 
program, streamlining our transition from the Active to the 
Reserve component, and implementing a transition bonus of up to 
$20,000 to convert to global war on terror ratings, we attained 
115 percent of overall accession goal, 122 percent of prior 
service goal, and 103 percent of new accession training thus 
far in fiscal year 2008.
    We've had mixed results in officer recruiting, meeting 19 
of 23 Active component community goals in 2007, including all 
unrestricted, restricted, and staff core goals. We've increased 
our focus and taken steps to enhance our chances of succeeding 
in the four remaining communities: Chaplain Corps, Chaplain 
Student Programs, Naval Reactors Engineers, and Medical 
Profession Student Programs.
    Our number one priority in fiscal year 2008 is medical 
officer recruiting. We're executing a comprehensive medical 
recruiting strategy to address shortfalls in this area. Many 
incentives enacted in the 2007 and 2008 defense bills will help 
us keep competitive and move us forward toward sustained 
success in recruiting medical professions. With the help of an 
increase in the Nurse Corps accession bonus to $30,000, we are 
currently 30 percent ahead of last year's very successful 
recruiting season. Enhanced direct accession bonuses for 
medical doctors and dentists and a $20,000 accession bonus for 
medical student programs have contributed to our identifying 35 
percent of our accession goals to date compared to 21 percent 
this time last year, keeping us on pace to make all Active 
officer accessions in fiscal year 2008.
    The Reserve officer market continues to pose significant 
challenges. Faced with an accession mission requirement for 72 
percent prior service personnel, we achieved just 52 percent of 
the overall 2007 accession mission. Accordingly, we reduced our 
2008 prior service requirement to 51 percent of the accession 
plan in many designators and implemented several initiatives, 
such as a $10,000 affiliation bonus and 2-year mobilization 
deferment, to attract prior service sailors to the Reserve 
component. Thus far in 2008, we've attained 36 percent of non-
medical Reserve officer, compared to only 51 percent for the 
entire fiscal year in 2007.
    In Reserve medical recruiting, we've attained or selected 
53 percent of our annual goal so far, compared to only 57 
percent for all last year.
    With your continued support, I'm confident we will be able 
to continue in the successes we are currently enjoying and in 
addressing existing shortfalls.
    I thank you for your unwavering support for Navy recruiting 
and I look forward to responding to your questions.
    [The prepared statement of Admiral Kilkenny follows:]
           Prepared Statement by RADM Joseph F. Kilkenny, USN
    Mr. Chairman, and distinguished members of the subcommittee, I 
appreciate the opportunity to appear today to offer an update on the 
state of Navy recruiting, both Active and Reserve. It is an honor for 
me to lead the 7,500 Total Force sailors who are dedicated to the 
Navy's recruiting efforts to enlist the best and brightest young men 
and women to succeed in today's Navy. I am pleased to tell you that we 
are meeting our mission requirements in both quality and quantity and 
we intend to continue to do so.
    Recruiting for the military is a significant challenge. The Navy is 
competing with private sector employers and colleges for the best and 
brightest from our Millennial Generation, a generation whose outlook 
has been fashioned by dramatically different technology and experiences 
than that of previous generations. During childhood, this generation 
witnessed acts of terrorism on American soil. Traumatizing events, such 
as school shootings, combined with the persistent threat of terrorism, 
have stimulated parents' natural instincts to be increasingly 
protective of and more involved in their children's lives and decision 
making. With the advent of the Internet, e-mail, cell phones, instant 
messaging and even more recent developments like interactive social-
networking websites, such as Facebook and MySpace, Millennials 
experience the world on a global scale, 24/7. They share their 
experiences with, and seek information from others whom they have never 
met except through virtual social networks. Their pressure to succeed 
is internally focused and they are motivated to take jobs that help 
people in need and make a difference to society at large. These young 
men and women view education and a civilian job as the way to get 
ahead. Military service is typically not on their radar screens. Most 
Millennials' influencers have never served in the military and are 
generally not informed about the features and many benefits of a 
military career. In many cases, influencers today often paint a neutral 
or sometimes negative picture of military service adding to the 
challenges of recruiting this generation of young Americans. To attract 
Millennials to join the Navy, it is vital that we relate to them on 
their terms and appeal to their search for something more, their sense 
of service, their spirit of volunteerism and their interest in the 
world around them.
                          enlisted recruiting
    Despite the many challenges, fiscal year 2007 marked the 9th 
consecutive year we achieved overall Active component accession 
mission, while surpassing DOD minimum recruit quality standards. In 
fiscal year 2007, Navy met 101 percent of Active enlisted accession 
goal, with 93 percent High School Diploma Graduates (HSDG) and 73 
percent in Test Score Categories (TSC) I-IIIA on the Armed Forces 
Qualification Test. So far in fiscal year 2008, we have sustained this 
success, achieving 112 percent attainment of first quarter accession 
goal with 92 percent HSDG and 75 percent TSC I-IIIA.
    Last year, our number one recruiting priority was Naval Special 
Warfare and Special Operations (NSW/NSO). These elite programs provide 
some of the most demanding training in the world and require 
exceptionally bright and physically fit individuals. The health of 
these communities is very important to Navy's contributions to our 
Nation's successes in the global war on terrorism and demands that we 
place special emphasis on recruiting well-qualified applicants with the 
aptitude and capacity to successfully complete the extremely arduous 
training. To enhance the likelihood of candidates succeeding, we hired 
former NSW/NSO personnel to assist in selection, testing, education, 
and mentoring new recruits. Since the first hurdle for these recruits 
is passing the Physical Screening Test (PST), we require NSW/NSO 
recruits to successfully complete the PST with a passing score prior to 
accession. These measures dramatically increased PST pass-rates for 
recruits at boot camp, increasing from the historic norm of 28 percent 
to 78 percent in 2007. The impact of the $40,000 enlistment bonus 
cannot be overstated in its contribution to our success in NSW/NSO 
recruiting. We would like to thank you for your past and continued 
support in improving the incentive packages available to the Navy.
    In fiscal year 2007, the Navy achieved 100 percent of the Reserve 
component accession goal compared to 87 percent the previous year. Much 
of the shortfall for fiscal year 2006 was in those ratings which 
directly support the global war on terror. The traditional reliance on 
prior service sailors to the meet this mission made it difficult to 
meet the requirements. A mismatch exists between the skill sets and 
number of personnel transitioning from the Active component to meet 
Reserve component requirements. To address this challenge, Navy aligned 
the mission mix to accept recruits without prior military service 
through the New Accession Training (NAT) program exclusively into 
global war on terror ratings. Additionally, Navy has streamlined the 
procedures to transition sailors from Active component to Reserve 
component. We also implemented an aggressive program that allows 
transitioning sailors to receive up to a $20,000 bonus upon completion 
of apprenticeship training necessary to convert to global war on terror 
ratings. The enlistment incentives you authorized for our Reserve 
component have been and continue to be critical to mission attainment.
    Our success with the Reserve enlisted mission continues this fiscal 
year. For the first quarter, we attained 115 percent of overall 
accession goal, while exceeding both prior-service (122 percent) and 
NAT (103 percent) goals.
                           officer recruiting
    Fiscal year 2007 produced mixed results in the area of officer 
recruiting. We met 19 of 23 Active component officer community goals, 
including all unrestricted line, restricted line, and staff corps 
community goals. Chaplain Corps, Chaplain Student Program, Naval 
Reactors Engineers, and Medical Professions Student Programs were the 
only officer communities that did not achieve annual goal. We increased 
our attention to officer recruiting across the board and initiated 
several programs and incentives to attract applicants in this 
competitive market.
    We established Medical Officer Recruiting as our number one 
priority for fiscal year 2008 and are executing a comprehensive Medical 
Recruiting Strategy that we developed last fall to attack shortfalls in 
our medical programs. To attract quality medical and dental 
professionals, a significant amount of work has been completed to 
include incentives in legislation. Many of those incentives were 
authorized in the National Defense Authorization Act for Fiscal Year 
2007 (NDAA 2007), while others are in planned authorizations for 2008 
legislation and beyond.
    Your continued support in funding incentives that keep us 
competitive with the civilian marketplace will move us toward sustained 
success in the recruitment of medical professionals. The competitive 
nursing market is a good example of the effectiveness of comprehensive 
financial incentives for recruiting Health Professionals. The 4-year 
active accession bonus was increased from $15,000 in 2005 to $20,000 in 
2006 to $25,000 in 2007. Correspondingly, our Active component Nurse 
Corps direct accession goal attainment improved from 55 percent to 82 
percent to 103 percent in those same years.
    To overcome the national nursing shortage and increasing civilian 
sector competition, we increased the nurse accession bonus to $30,000 
which will help sustain our success. So far in 2008 we are 30 percent 
ahead of last year's very successful recruiting season. Initial 
indications are that we should see similar results from the authorities 
granted in NDAA 2007 to pay up to a $400,000 accession bonus for direct 
accessions of medical doctors and dentists, as well as a $20,000 
accession bonus for our medical student programs. To date we have 
identified 35 percent of our accession goal, compared to 21 percent at 
this same time last year--a direct result of accession incentives. We 
are seeing similar improvement across the board and are on pace to make 
all active officer accession goals in fiscal year 2008.
    For Reserve officers, we achieved 52 percent of our overall 
accession mission in 2007. Seventy-one percent of our accession 
requirement is from communities that require prior-service experience. 
That market continues to pose significant challenges since most people 
leaving the Active Navy are leaving for reasons that are not relieved 
by simply switching components. Recruiters are facing the same 
arguments Active-Duty Commanders face when trying to retain personnel. 
In fiscal year 2008, we reduced our prior-service Navy requirement to 
51 percent of the accession plan, though designators that demand prior 
Navy experience will continue to be challenging. Several initiatives 
have been put in place to attract prior service sailors to the Reserve 
component including a $10,000 affiliation bonus and a 2-year 
mobilization deferment. Your continued support of legislation that 
provides us with the appropriate Reserve affiliation incentives is 
bearing fruit. Already in 2008 we've seen a tremendous turnaround in 
Reserve officer recruiting. We have attained 36 percent of non-medical 
Reserve officer goal so far in fiscal year 2008 compared to only 
attaining 51 percent for the entire fiscal year 2007. Reserve Medical 
Recruiting is our greatest success in fiscal year 2008 to date, having 
already attained or selected 53 percent of annual goal compared to the 
57 percent we accessed in all of 2007. We attribute this success to the 
affiliation incentives, restructuring of our accession requirements and 
a renewed focus on the officer recruiting mission.
    Overall, we are cautiously optimistic that with your continued 
support and the dedicated efforts that we have made in officer 
recruiting, we will move towards sustainable success.
                               conclusion
    In spite of an extremely challenging recruiting environment, Navy 
recruiting is well-positioned to succeed in the upcoming year. We have 
a sustainable, agile, and adaptive recruiting force dedicated to 
recruiting the very best talent our Nation has to offer. We ask for 
your continued support for the many recruiting incentives necessary to 
meet mission requirements for our Navy, today, tomorrow, and far into 
the future.

    Senator Ben Nelson. Thank you, Admiral.
    General Vautrinot. Am I getting closer?

STATEMENT OF BRIG. GEN. SUZANNE M. VAUTRINOT, USAF, COMMANDER, 
                  AIR FORCE RECRUITING SERVICE

    General Vautrinot. I go by ``V-8'' and you're welcome to 
use it. [Laughter.]
    Mr. Chairman, honorable members of the subcommittee: Thank 
you so much for affording your Air Force the opportunity to 
talk about our robust and very experienced recruiting force, 
our successes, and our challenges. Mr. Chairman, as you pointed 
out, we are in a tough environment and, like all Air Force 
missions around the globe, our recruiting resources are 
severely constrained. We continue to succeed, but in order to 
do so we've had to get leaner and much more efficient.
    I'm honored today to represent our Nation's smallest 
military recruiting force, all volunteers, men and women like 
Master Sergeant Dave White back there, who are working long 
hours, each covering thousands of miles, in an environment 
that's not always welcoming, with the full support of their 
families every step of the way.
    Air Force recruiters are creative and enthusiastic. But 
more than that, they embrace the Air Force's highest core 
value, integrity first. Word of mouth--recruiters telling 
others exactly how it's going to be in their basic training, in 
their first job; and then those recruits have an extraordinary 
experience and they call home and they tell their friends and 
they tell their families.
    We want their training and their education to match what 
their recruiters told them, and we want their positive Air 
Force experience to make them want to stay. This is 
perpetuation. It's what allows us to recruit and to retain 
effectively.
    The Air Force attracts recruits with a simple but powerful 
message: We're a well-trained, highly technical force, a global 
team defending the Nation in the war on terrorism, while 
simultaneously executing humanitarian missions around the 
globe. Above all, new airmen look forward to doing amazing 
things in vital air, space, and cyberspace missions, making a 
real difference to the future of their Nation.
    The quality of our recruits remains far above DOD 
benchmarks. Nearly 80 percent of our recruits scored in the top 
half of the ASVAB last year, a number that has remained above 
75 percent since 2000. Additionally, every airman enters with a 
high school education or equivalent and 91 percent of our new 
airmen enter without a waiver. Finally, more than 15 percent of 
Air Force enlistees enter with at least a year of college 
credits, a clear indicator that we're attracting a mature and 
well-educated young American.
    Recruiting Service recruits a diverse, high quality 
volunteer force to fill jobs that are vital to accomplishing 
our Air Force's worldwide mission and despite as high as a 
fourfold increase in requirements for Air Force hard-to-fill 
categories, such as our Special Operations. Fundamentally, 
every single opening for combat controller, pararescue, 
survival, evasion, resistance and escape, our explosive 
ordnance disposal, our tactical air control parties working 
with the Marine Corps and the Army, and our linguists, every 
job filled for 7 years.
    After all this is accomplished, despite the fact that the 
likelihood that Americans will serve their country has dipped 
to its lowest point in decades, as General Bostick and Admiral 
Kilkenny have pointed out, but also the likelihood that 
parents, teachers, coaches, and clergy will recommend military 
service has significantly dropped. Moreover, as you mentioned, 
nearly three-quarters of America's youth do not meet basic 
eligibility standards. Finally, an increasing number of 
communities and high schools are less likely to welcome 
recruiters. Still, your Air Force recruiters succeed.
    We are making adjustments in health professions recruiting 
and we expect to be able to hurdle challenges in this area. To 
do that, we've carefully looked at where we've been successful 
and have adjusted to play to those strengths. First, we've 
decided it's more effective to grow our own physicians, 
dentists, and nurses, specifically student-based accessions. We 
are focusing our recruiters and our core efforts in areas where 
colleges and universities feed to medical, dental, and bachelor 
of science nursing schools. We will fill both our student-based 
and fully qualified health professional accessions using the 
incentive programs your committee has so generously supported. 
Thank you. The Air Force Chief of Staff has directed that next 
year's health professions incentives will reflect this 
adjustment.
    Moreover, recruiting has teamed with the Air Force's 
medical community and now has career field champions--
experienced medical professionals in each one of our core 
specialties that pair and partner with recruiters as they go to 
conventions and schools. The recruiter is able to talk about 
the benefits of the Air Force and the health professional is 
able to talk about the specific benefits, the higher education, 
the specialized residency, in their medical professions.
    These changes are critical to the care and sustainment of 
our Nation's military members, highlighted by the fact that 
over 8,000 Air Force medical officers have deployed in support 
of the global war on terrorism.
    Unique to Air Force Reserve component recruiting is the 
fact that they're primarily a local force, uniting the civilian 
and the military work forces. Their units, many in your 
communities, take time to build, and as the Guard and Reserve 
respond to the BRAC and the Total Force Initiative and embark 
on new highly-skilled missions in intelligence, space, 
cyberspace, medical support, and other areas in communities 
across the country, it takes time to find the right people to 
put in the right place.
    Transformation initiatives will be effective in the mid-
April timeframe and this should serve as a positive turning 
point in the Air Force's recruiting efforts, particularly 
officers.
    The bottom line is your Air Force total force recruiting 
team continues to bring in quality men and women because it 
matters. We recruit to retain, so we recruit the brightest 
candidates possible, then provide them with tough, highly 
technical training so that they, America's Air Force, can help 
secure the future of this great Nation.
    Thank you.
    [The prepared statement of General Vautrinot follows:]
      Prepared Statement by Brig. Gen. Suzanne M. Vautrinot, USAF
    Mr. Chairman and honorable members of this committee, I want to 
thank you for affording the Air Force an opportunity to discuss its 
robust recruiting mission. It is with great pride that I represent the 
world's finest Air, Space, and Cyberspace Force and all of the airmen 
who are engaged every day in the joint fight providing rapid response 
during conflicts and humanitarian relief across the world.
    As the Air Force transforms to a leaner and more agile force to 
meet today's global challenges, our recruiters continue to succeed in 
their primary goal of finding the right people with the right skills at 
the right time.
                      active component recruiting
    The Air Force exceeded its enlisted recruiting goal in 2007 for the 
8th consecutive year, and for the 77th straight month.
    Since 2000, the Air Force has enlisted 258,166 airmen against a 
goal of 254,753 for 101 percent of mission accomplishment. For 2008, 
the active-duty requirement is 27,800 and the Air Force is well on its 
way toward meeting its goal for the 9th straight year.
    The quality of our recruits remains significantly above Department 
of Defense benchmarks in all primary indicators, consistent with the 
high Air Force standards of the last two decades. Seventy-nine percent 
of our enlistees scored at or above the 50th percentile on the Armed 
Services Vocational Aptitude Battery (ASVAB) test last year, a number 
that has remained above 75 percent since 2000. Additionally, every 
single Air Force accession enters the service with at least a high-
school degree or an equivalent education. Furthermore, 91 percent of 
our recruits enter without requiring a waiver for moral, drug, or 
criminal issues. Finally, more than 15 percent of all Air Force 
enlistees entered with more than a year of college credits last year--
nearly a 30-percent increase from 2001.
    Recruiting Service continues to recruit a diverse, high-quality 
volunteer force to fill jobs vital to the Air Force in accomplishing 
its worldwide mission. Our hard-to-fill, critical warfighting career 
fields are always at the forefront of this effort. Over the last 7 
years, despite increased requirements in all Air Force ``special ops'' 
categories, every single opening for Combat Controller; Pararescue; 
Tactical Air Control Party; Explosive Ordnance Disposal; Survival, 
Evasion, Resistance, and Escape; and Linguist has been filled. Congress 
has provided assistance to these hard-to-fill positions in the way of 
an initial enlistment bonus ranging from $1,500 to $13,000, depending 
on the job and length of enlistment. No other job skills enlistment 
bonuses are offered.
    Officer recruitment programs, with the exception of our medical 
career fields, have met with continued mission success. On the medical 
side, last year the Air Force recruited just under half of its fully 
qualified healthcare target. Broken down by specialty, it amounted to 
68 doctors (17.4 percent), 45 dentists (25.5 percent), 222 nurses (62.5 
percent), 125 biomedical scientists (62.8 percent), and 34 medical 
administrators (97 percent). This need is made all the greater because 
the Air Force has deployed over 8,000 medical officers in support of 
the global war on terror since 2001.
    Air Force Recruiting Service and the Air Force Medical Service have 
partnered to reduce the shortfall in medical officer recruiting. At the 
forefront of our medical accessions plan is an increase in health 
professions scholarships and a realignment of health professions 
recruiters to major American medical education centers. As a result, 
Recruiting Service has placed more emphasis on bringing in student-
based accessions versus fully qualified professionals. While civilian 
medical facilities struggle with the same challenge of maintaining a 
viable medical corps, assistance from Congress to support our efforts 
has come in the form of authorization of accession bonuses for fully 
qualified medical professionals. Similarly, we have significantly 
increased available medical scholarship opportunities.
    Air Force Recruiting continues to hurdle other challenges, 
including the dynamics of the recruiting environment, limited 
resources, and the quality of the age-eligible demographic.
    The propensity for young Americans to serve their country, coupled 
with a drop in key influencers--such as teachers, coaches, and family 
members--recommending Service, is at its lowest point in 35 years. 
Moreover, nearly three quarters of America's youth do not meet 
eligibility standards to serve in our Nation's military, so the Air 
Force must compete for qualified candidates not only with the other 
Services, but with colleges and industry as well. Making that task even 
more difficult is the fact that an increasing number of communities and 
high schools are less likely to welcome recruiters.
    A reduction in both recruiters and money has made it a tough 
playing field, but one on which Air Force recruiters continue to excel. 
The Air Force Recruiting Service consistently stays 6 months ahead of 
the game in filling its enlistment job contracts (our ``job bank''), 
with 70 percent of our flights and 90 percent of our squadrons making 
their recruiting goals. This indicates teamwork at ``full production.''
    Air Force recruiting efforts have benefited from strong 
perpetuation--by our airmen whose positive recruitment experience was 
followed by good opportunities in training, education, and duty during 
their enlistments, who then spread that message back home. We believe 
our success in this regard is strongly tied to the Air Force's core 
value of integrity.
    The Air Force has also initiated creative approaches in targeted 
recruiting, primarily focusing on events that young Americans attend 
such as extreme sporting venues like motorbike racing, snowmobile 
racing, and surfing.
                      reserve component recruiting
    In addition to our Active Force, our Air Reserve component is 
experiencing successful recruiting efforts while facing additional 
recruiting challenges.
    The Air Force Reserve met its recruiting goals for a 7th 
consecutive year. That being said, a 10-percent reduction in personnel 
planned over the future years defense program (FYDP), coupled with the 
impact of base realignment and closure (BRAC) initiatives, presents 
significant future recruiting challenges for the Air Force Reserve. 
With the personnel reductions brought about by the realignment and 
closure of Reserve installations due to BRAC and Total Force 
Integration, approximately 20 percent of the force will be directly 
impacted by the planned changes through new and emerging missions, and 
mission adjustments to satisfy Air Force requirements. In light of all 
these changes, they expect the recruiting environment will be 
turbulent, dynamic and challenging.
    It's important to remember the Air Force Reserve is a local force 
and that growing units will face significant recruiting challenges when 
considering the availability of adequately qualified and trained 
personnel. As has always been the case, they will focus on maximizing 
prior service accessions. Regular Air Force reductions over the FYDP 
may prove beneficial to their recruiting efforts, but will not be the 
complete answer since only the Regular Air Force critical skills 
closely match those in the Reserve. Non-prior service or ``other prior 
service'' individuals accessed by the Reserve will inevitably require 
extensive retraining which is costly.
    The Air National Guard achieved 99.3 percent of its recruiting goal 
for fiscal year 2007. 2008 is off to a great start for enlisted 
recruiting, but officer recruiting is short, largely due to the issues 
associated with BRAC and Total Force Initiatives. Overall, these 
initiatives will make tremendous improvements in the integration of the 
Active and Reserve components, but these initiatives have caused some 
short-term recruiting challenges. The impact of these transformation 
initiatives within the Air National Guard cannot be understated, as 
many Air National Guard units were faced with challenges regarding 
their future mission and personnel requirements, making if difficult to 
accomplish the full recruiting mission during that time.
    The good news is that all transformation initiatives will be 
effective in the April timeframe and this should serve as a positive 
turning point in the Air National Guard's recruiting efforts. While 
many opportunities still exist in the traditional fighter, air 
refueling, airlift and special operations missions, there is an 
increasing need for talent in intelligence, surveillance and 
reconnaissance, unmanned aerial systems, space, cyberspace and 
expeditionary medical support. The Air National Guard recruiting force 
is now engaged in a dramatic effort to attract the nearly 9,000 
enlisted personnel and 2,700 officers it will need to perform the Air 
National Guard missions of the future.
    To ensure separating Active-Duty personnel have every opportunity 
to continue service in the Reserve component, we request that any 
future legislation enacted to assist Services with drawdown efforts 
should encourage or incentivize continued service in the Reserve 
component. Retaining our separating Active component members is the 
best investment the country can make for our Reserve component because 
it ensures a force that is ready and able to go to war at any time.
                               conclusion
    Our Nation is facing challenging times. The Air Force has been in 
continual combat operations for the last 17 years. Military operations 
in Iraq and Afghanistan have tested our ranks and national polls 
indicate that young American's are less likely to consider joining the 
military, but well-qualified young men and women keep on serving--a 
testament to the tremendous quality of our countrymen, our Air Force, 
and our all-volunteer recruiters.
    The bottom line is our Total Force--comprised of Active-Duty, Air 
Force Reserve, and Air National Guard--continues to bring in quality 
men and women because it matters. We recruit to retain, so we recruit 
the brightest candidates possible, then provide them with tough, 
highly-technical training that gives them the right skills to sustain 
the combat capability of America's Air Force.

    Senator Ben Nelson. Thank you, General.
    General Tryon?

   STATEMENT OF MAJ. GEN. RICHARD T. TRYON, USMC, COMMANDING 
            GENERAL, MARINE CORPS RECRUITING COMMAND

    General Tryon. Good morning, sir. Mr. Chairman, 
distinguished members of the subcommittee: Thank you for the 
opportunity to appear before you today and to provide 
information on the state of Marine Corps recruiting.
    I'd like to begin first by expressing the Marine Corps' 
appreciation for your continued support of our recruiting 
effort. Our commitment to you and to the American people is 
that we will strive to recruit quality young men and women who 
meet the high standards expected of America's marines.
    Today's recruiting environment, as you have alluded to 
earlier, is both competitive and challenging. It's tough. Our 
recruiters, like Staff Sergeant Britton, who has accompanied me 
here today, work long hours and experience difficulties in 
finding young men and women who are mentally, morally, and 
physically qualified with either the inclination or ambition to 
serve their country. Additionally, our recruiters find that 
they must invest considerable time with parents, teachers, 
guidance counselors, and others who influence today's youth as 
they consider their post-high school opportunities.
    During the past fiscal year, the Marine Corps achieved its 
recruiting objectives in both quantity and quality. This was a 
result of the hard work performed by marines assigned to 
recruiting duty and those committed to accomplishing their 
mission. I attribute the success that we achieved this past 
year to the strong positive image that the Marine Corps enjoys 
with the American public and to a quality recruiting force, one 
that is screened, well-trained, and properly resourced for the 
mission.
    We are currently meeting our objectives for fiscal year 
2008 for both officer and enlisted recruiting and, while 
recruiting is fraught with uncertainties, I anticipate that we 
are on track to achieve our assigned mission for fiscal year 
2008.
    Thank you again for your support and for the opportunity to 
appear before you today.
    [The prepared statement of General Tryon follows:]
         Prepared Statement by Maj. Gen. Richard T. Tryon, USAF
                               recruiting
    Chairman Nelson, Senator Graham, and distinguished members of the 
subcommittee; I am pleased to report that despite the current 
challenges in the recruiting environment, our recruiters continue to 
make their recruiting goals in all areas in support of our total force 
recruiting mission. This past year, our recruiting mission was 
increased as part of a series of milestones to ``grow the force'' and 
build an Active component 21st century Marine Corps with an end 
strength of 202,000. Fiscal year 2007 was a year of change for the 
Marine Corps Recruiting Command. Our focus in fiscal year 2008 is to 
continue to recruit quality men and women into our Corps as we expand 
our ranks.
    Recruiting is the lifeblood of our Corps. The recruiting 
environment remains competitive and challenging as we recruit during 
sustained combat operations and compete with our sister Services and 
the private sector for the best eligible men and women our country has 
to offer. We believe that detailed planning, precision execution, and 
unwavering commitment to quality by our recruiting force will yield 
results. The professional character of our recruiters, exhibiting our 
core values of honor, courage, and commitment, must continue to earn 
the trust and respect of the public. Leadership and accountability 
define our Corps and are essential to preserving the relationship we 
have with the American people.
    To meet the challenges of the current recruiting environment it is 
imperative that we maintain our high standards both for our recruiters 
and those who volunteer to serve in our Corps. The Corps must continue 
to be comprised of the best and brightest of America's youth. We must 
also remain mindful that the Marine Corps needs to reflect the face of 
the Nation and be representative of those we serve. Today's youth, now 
more than ever, must exhibit the leadership potential, moral character, 
native intelligence, and physical attributes in order to succeed in the 
Corps. Our image of a smart, tough, elite warrior continues to resonate 
with young people seeking to join our Corps. Our ethos that every 
marine is a rifleman is inherent in our recruiting themes. Therefore, 
it is no surprise that our Marine recruiters receive more requests for 
infantry programs from applicants than any other program in our 
inventory. Clearly, our enlistees know and fully understand the 
magnitude of their decision and that in all likelihood, they will be 
called upon to serve on front lines in the war against terrorism.
    As alluded to earlier, enlisting quality men and women only 
strengthens our Corps as we expand our ranks. Equally important, it 
helps to preserve our unique character. There is a direct correlation 
between enlisting quality youth today and the long-term effects it has 
on reducing attrition at the recruit depots, increasing retention, and 
improving readiness in the operating forces. These factors contribute 
to ensuring that the Marine Corps remains the Nation's premiere force 
in readiness.
Total Force
    The Marine Corps is unique in that all recruiting efforts (officer, 
enlisted, regular, Reserve, and prior-service) fall under the direction 
of the Marine Corps Recruiting Command. Operationally, this provides us 
with flexibility and unity of command in order to annually meet our 
objectives. In fiscal year 2007, the Marine Corps achieved 100.1 
percent of the enlisted (regular and Reserve) ship mission 
(accessions). Over 95 percent of our accessions were Tier 1 high school 
diploma graduates and over 66 percent were in the I-IIIA upper mental 
group testing categories. In short, we accomplished our recruiting 
mission achieving the Commandant's standards and exceeding those of the 
Department of Defense (DOD). To meet the Marine Corps' proposed end 
strength increase, annual total force accessions missions will steadily 
grow from 40,863 in fiscal year 2007 to over 46,000 in fiscal year 
2010. Fiscal year 2008 total force accessions mission is 42,202. As of 
1 Jan 2008, we shipped (accessed) 8,117 applicants. This represents 
103.3 percent of our total force mission fiscal year to date. Although 
recruiting is fraught with uncertainties, we expect to meet our annual 
recruiting mission to include our quality goals. Additionally, we 
continue to achieve our contracting goals for this fiscal year which 
ensures we have a population of qualified individuals ready to ship to 
recruit training as we enter fiscal year 2009. Our Officer Selection 
Teams were also successful in fiscal year 2007, accessing 1,844 second 
lieutenants for 101 percent of their assigned mission. In fiscal year 
2008, we are continuing efforts to increase the population of officer 
candidates and commission second lieutenants commensurate with our 
force structure and the growth in end strength. To assist our officer 
selection officers in meeting their officer accession missions, we have 
implemented new programs such as the College Loan Repayment program in 
order to attract prospective candidates and remain competitive in this 
difficult recruiting environment.
Reserve Component
    For the Reserve component, the Marine Corps achieved its fiscal 
year 2007 Reserve enlisted recruiting goals with the accession of 5,287 
non-prior service marines and 1,591 prior service marines. As of 1 Jan 
2008, we accessed 893 non-prior service and 1,308 prior service 
marines, which reflects 21 percent and 29 percent of our annual mission 
respectively. Again, we expect to meet our Reserve recruiting and 
quality goals this year.
    Officer recruiting for our Selected Marine Corps Reserve (SMCR) 
units is traditionally one of our greatest challenges. To help address 
this issue, we initiated a Reserve officer commissioning program. Under 
this program, individuals complete all their initial training and 
return to a Reserve unit to serve as a drilling reservist. This past 
year the program showed promise by commissioning 48 second lieutenants 
directly into the SMCR. To date this fiscal year, we commissioned 27 
Reserve Officers and anticipate positive growth in this new initiative 
through fiscal year 2008 and beyond.
Accomplishing the Mission
    The Marine Corps understands that the `All-Volunteer Force' is in 
fact an ``All-Recruited Force'' and that the Marine Corps Recruiting 
Command is on the front lines engaged in a mission vital to the long-
term health of our Corps. In order to meet end strength goals, continue 
to maintain the high Marine Corps and DOD quality standards, and attain 
a diverse entry level population representative of national 
demographics, we must be ever vigilant in our focused approach of 
enlisting only the best America has to offer.
    The success achieved during the past fiscal year is attributed to a 
quality recruiting force; one that is screened, well-trained, and 
properly resourced to meet mission requirements. Every marine assigned 
to recruiting duty is evaluated based on his or her fitness to perform 
the demanding duties of a marine recruiter. The Headquarters Marine 
Corps Recruiter Screening Team (HRST) conducts annual visits to bases, 
stations and installations to interview prospective recruiters. 
Additionally, commanding officers must certify a marine's fitness for 
independent duty. Once screened, marines attend a 7-week Basic 
Recruiter's Course before reporting to their Recruiting Station. 
Training continues in the form of Proficiency and Review (PAR) training 
during the first 6 months on recruiting duty as a canvassing recruiter 
and subsequently as directed by the commanding officer of the 
recruiting station. Resourcing the Marine Corps Recruiting Command also 
has been a priority of senior marine leadership. During fiscal year 
2007, 200 additional recruiters were assigned to recruiting duty. 
Another 200 recruiters have been added in fiscal year 2008. The 
recruiting force has received the necessary tools in the form of 
additional offices, vehicles, computers, telephones, etc., in an effort 
to set the conditions for success. These increases have come with 
proper funding, increased marketing and advertisement initiatives, and 
recruiter performance recognition programs. Collectively, these efforts 
produce a quality recruiting force designed to support the projected 
increase in the Marine Corps end strength.
    A key factor in our mission management is ensuring clear and direct 
responsibility and oversight. The Commanding General of Marine Corps 
Recruiting Command reports directly to the Commandant of the Marine 
Corps. The Commanding Generals of our two Marine Corps Recruit Training 
Depots also serve as the Commanding Generals of our Eastern and Western 
Recruiting Regions. Having the same individual responsible for quality 
recruiting and entry-level basic training is crucial to successfully 
recruiting and making marines. Consistent with this, our recruiters' 
commitment to recruiting a quality Corps is further reinforced by the 
fact that they are held accountable for their recruits' performance 
throughout the entire process as they earn the title marine, from the 
time they enlist in the delayed entry program until they complete 
``boot camp.''
    Although marine recruiters need and use tangible incentives (e.g. 
bonuses, college funds, etc.), we primarily achieve our success by 
emphasizing the Marine Corps first and foremost. We strongly believe 
that our core values distinguish us as an elite force and that once you 
earn the title marine, you are a marine for life.
    We thank Congress for their continued support of legislation that 
provides recruiters access to high schools and student directory lists. 
This access remains critical to recruiting quality applicants. Without 
it, our marine recruiters would lose one of their most efficient and 
productive means of conveying the opportunities of military service. 
This would have an immediate, adverse impact on our ability to 
accomplish our mission. Maintaining access to high schools and student 
directories remains a top priority for ensuring continued success. 
Further, Congress' continued support in funding for enlistment bonuses 
and advertising is appreciated.
    The ability to advertise is essential in the era of the All-
Volunteer Force. Raising public awareness and extolling the virtues and 
benefits of serving one's country is important in today's society.
    In closing, recruiting is the strategic first step in making 
marines just as it is the first step in growing the Corps. As we expand 
our ranks and increase our officer and enlisted populations, we must 
never lose sight that our most effective weapon is the marine 
recruiter. In all that we do, we must remain faithful to our promise to 
make marines, win our country's battles and return quality citizens 
back home: citizens who--once transformed--will be marines for life.

    Senator Ben Nelson. Thank you very much, General.
    Senator McCaskill, would you have any opening remarks that 
you might like to make before we go to the questions?
    Senator McCaskill. Thank you, Senator Nelson.
    Just briefly, I hope we can stay long enough to ask a few 
questions. All of us are, I know, juggling lots of stuff this 
morning. But I did want to just focus on misconduct in the area 
of recruiting. I know and am familiar with a problem that we 
had in St. Louis where someone actually went in from a news 
station posing as a recruit and taped the recruiting session, 
and of course then it was shown on the television in St. Louis. 
It was ugly. It was disappointing.
    Particularly, I know the pressure that's on the Army in 
terms of the numbers, and this was, in fact, an Army recruiter. 
I want to visit with you, hopefully if I have time, about the 
pilot project that is ongoing about cameras in the recruiting 
room. I know you've done the buddy system, but cameras and 
looking at what the costs of that would be and when the reports 
expected on the pilot project.
    I think it's really important, with the pressure that is 
bringing to bear on recruiting numbers, that we are very, very 
careful about how we're handling recruiters who are maybe 
saying things that are just frankly not true. This incident, 
clearly the impression was being given that if you sign up you 
would not have to go to Iraq or that Iraq was safer than 
downtown St. Louis. Obviously, that not only I think is a 
misstatement, it's clearly offensive to the people of St. 
Louis, likening their community to a war zone where very, very 
brave men and women have obviously lost their lives because 
people want to kill them because of who they represent and what 
they're trying to do.
    So I am very impressed with all of you and the efforts that 
are being made. I have such respect for our military. I 
understand these are a few bad apples, a very, very few. But we 
have to be careful because, with the pressure that's being 
brought to bear, we have to make sure we have a system in place 
to ferret out those bad apples and make sure that we get them 
out of the recruiting process and appropriate action is taken 
in terms of accountability.
    Thank you, Mr. Chairman.
    Senator Ben Nelson. Thank you, Senator. I would hope that 
we would have some time to talk directly to the recruiters so 
that you might be able to address the question to them, because 
I suspect that they, as truly the boots-on-the-ground in 
recruiting, they're certainly going to be aware of what is 
going on. Thank you.
    I guess this goes to all the witnesses. Everyone's aware 
that the President vetoed the National Defense Authorization 
Act as passed by Congress last December. Congress quickly 
revised the bill to address the President's concerns and 
modified it to make sure that the military pay raise and 
authority to pay bonuses were retroactive, so no servicemember 
would lose pay.
    Now the President signed that legislation and did so last 
Monday. The question I have is, did the uncertainty created by 
this delay in enacting the bill affect recruiting in January, 
because of just the uncertainty, is it going to be signed, are 
they going to be able to do it, will the pay raise go through, 
will it be retroactive, the uncertainty that comes about 
without having legislation in place? I just wonder if you had 
any experience related to that. I'm not anticipating that it 
was significant.
    Admiral Kilkenny. Sir, I'll answer for the Navy, sir. We 
took precautions when we knew it wasn't going to get passed. 
Thank you for your support on making everything retroactive. I 
think most of us are coming up at the end of the month, but I 
can tell you that it has had no impact on Navy recruiting for 
the short speed bump that I say occurred, and we appreciate 
your quick addressing of that information.
    We all probably feel that if it went longer that it may 
have an impact on us. But the brevity of the time, sir, had no 
impact on the Navy's perspective.
    Senator Ben Nelson. Did anybody else have any reaction to 
that, any experience?
    General Vautrinot. Sir, we were very pleased with our 
recruiters, who were able to work with each of the new 
candidates, those that are in our delayed enlistment program 
and were going to be coming in after the first of the year. 
Every single one of them signed the addendum, recognized what 
was going on in Congress, and I'm sure every one of them thanks 
you, because they signed that on good faith and based on the 
good relationships they had with their recruiters. So making 
that possible and making it retroactive was very supportive.
    In addition, the language in that bill also helps us in the 
health professions recruiting area for continuing the bonus and 
the incentive programs.
    Senator Ben Nelson. General?
    General Tryon. Sir, we did not experience difficulties 
associated with the veto. Our recruiters strive first and 
foremost to emphasize the value of service to both Corps and 
country. We seek youngsters who want to be marines first and we 
place a premium on those intangibles that are associated with 
service to Corps and country, such as patriotism, pride of 
belonging, and the image of a smart, tough, elite warrior.
    That said, the 13 skill bonuses that we do have are 
certainly useful in filling the low density, high demand 
Military Occupational Specialty (MOS) skills that are required 
in our Service today.
    Senator Ben Nelson. General?
    General Bostick. We saw no impact in the Active Duty Army 
and the Army Reserve. There was some impact visible in the 
reenlistment end of things, and that will pick up, I'm sure, 
with the passing of the law.
    Senator Ben Nelson. Thank you.
    The reliance on a high school diploma or its equivalent as 
a quality indicator has really been historical for all of the 
branches. They've all testified that a high school diploma is a 
key quality indicator, and certainly I would not want to 
dispute that. But are there other indicators in the absence of 
a high school diploma or its equivalent that might lead you to 
believe that you wouldn't have to put that as the centerpiece 
for recruiting?
    General Vautrinot?
    General Vautrinot. Sir, we are very proud of the 99 percent 
high school graduate and equivalent. I think that OSD has 
helped us in defining equivalency. Equivalency is a GED plus 15 
successful college credit hours. It is also home school with 
specific credentials, numbers of hours of contact in that home 
school program, plus a score above 50 on the vocational 
aptitude battery, which is equivalent to what your universities 
and colleges would accept as a program that was college-bound 
or an ability to work in a controlled environment, to learn in 
that environment, and be successful.
    The correlation we look for in the Air Force is that these 
individuals will be successful in their highly technical 
training and because they are successful in training be 
successful in that first job, and therefore want to stay, be 
retained in the United States Air Force. That's why the high 
school diploma or equivalent as defined are so important to us.
    General Tryon. Sir, I would echo my Air Force counterpart's 
comments and say that for Marine Corps recruiting we strongly 
emphasize the importance of a high school program and one that 
focuses on contact, not only with the students, but also with 
the guidance counselors, the teachers, the coaches, the music 
instructors. Each year the Marine Corps Recruiting Command 
hosts 12 educator workshops on each coast, entertaining 
educators from across the country, providing them with a 
perspective on what we do and how we do it at our recruit 
training, introducing them to the culture that we have in our 
Corps. We find that to be particularly useful and more often 
than not they return back home to their respective schools and 
communities with a very positive message with respect to the 
opportunities that await their students after high school.
    Senator Ben Nelson. Any other thoughts?
    Admiral Kilkenny. Sir, the Navy has been very keen on the 
high school diploma. However, we're always looking at 
opportunities to open the aperture. I've asked Center for Naval 
Analyses to do a study for us on GED grads because I think we 
need to look at a big picture of the society that we live in. 
Many of the students today work two and three jobs to support 
their families. Sometimes they can't go to high school, yet 
they get a GED and they score very high on the ASVAB. I think 
we need to look at taking some of those folks in.
    Sometimes just the education testing doesn't always 
determine the heart of the lion and their ability to want to 
serve a greater cause. So I think we have to look at every one 
of those opportunities.
    Senator Ben Nelson. We don't want to miss a standard and we 
don't want to misapply a standard to the exclusion of people 
who tested otherwise and might demonstrate the skills necessary 
to do even greater work than those who come in with the 
requisite stamp of approval with a diploma or a GED.
    General?
    General Bostick. Mr. Chairman, we've looked at this very 
closely. We've taken in more of the GEDs and the tier 2 this 
past year, with 79 percent high school diploma graduates and 
the others filling out in GEDs and other categories. The high 
school diploma benchmark was set because of this word 
``sticktoitiveness,'' that they would stick to it through basic 
training and their first unit of assignment.
    One of the things to get at what you're talking about we've 
worked out with OSD was the tier 2 attrition study, to give a 
test, an additional test, to our GEDs, the assessment of 
individual motivation, to measure their motivation to succeed 
and to see if that GED would seem like, act like, attrite like 
a high school diploma graduate. What we found in the first look 
at this is our high school diploma graduates' retention rate 
through 12 months is about 89 percent. Those that pass the 
Assessment and Individual Motivation (AIM) test, these GEDs, 
the tier 2 attrition study, retain at 85 percent. Those that 
don't pass retain at 83 percent. So there is something that we 
can look at.
    I think there are other skill sets within the ASVAB. My dad 
was a mechanic in the Army for 26\1/2\ years, master sergeant, 
and I don't know what he scored on the test. I never asked him. 
But I know he was a darn good mechanic, and I don't know how 
his English skills were or his math skills, which are 
predominant measurements on that test.
    A lot of these kids that we find in the GED program have 
gone to vocational schools or otherwise have special talents in 
specific areas. What we're doing now is looking downrange and 
taking a look at those that have been in the Army with GEDs and 
determining, have we impacted negatively the Army in any way by 
bringing on a greater number of GEDs. I think the initial 
indications from the field is that they're performing very 
well.
    Senator Ben Nelson. I remember discussing with Admiral 
Vernon Clark when a point that he was making about the Navy was 
that different skill sets were going to be required as the Navy 
progresses forward, and that in order to do that you would have 
to have different ways of measuring potential skill 
capabilities other than the traditional methods. So I applaud 
all the efforts to try to get outside the box and take a look 
and make sure that we're not using a test that by itself is--
while I'm certainly not advocating against high school 
diplomas--I think they make a great deal of sense, obviously. 
But that's not the only test and I'm glad that you're looking 
at other ways of doing that, so that we don't miss 
opportunities and we don't foreclose opportunities for others 
who might want to be part of the military but for lacking this 
credential or that credential.
    Senator Chambliss, do you have some thoughts that you might 
like to share or questions?
    Senator Chambliss. Thank you very much, Mr. Chairman.
    Let me continue down that line of education, because I know 
from talking to folks on Active Duty, as well as folks in the 
Guard and Reserve, that the desire to obtain money for a 
college education has been a key motivator for young men and 
women and has been a key in successful recruiting also. The 
Services have not only attracted individuals who want to obtain 
an education, but have also retained individuals for careers 
while enabling them to achieve educational goals.
    New proposals regarding the Montgomery GI Bill and other 
education benefits have been raised. The President on Monday 
night talked specifically about the ability to transfer unused 
GI Bill benefits to dependents.
    Let me ask you, how important do you view education 
benefits in attracting recruits? Do you think that the 
combination of educational benefits, including the so-called 
kickers or enhancements available, provide a sufficient benefit 
in balancing the goals of recruiting and retention? What 
changes in education benefits would you recommend? General 
Bostick, let me start with you, please, sir.
    General Bostick. This is a very, very important area. I was 
an instructor or professor up at West Point in engineering. My 
wife is a principal at an elementary school. So we talk about 
education all the time. But education is very important for the 
United States Army and we are working it in several fashions.
    I talked about March to Success--that program for the Army 
to do something in the area of education. We're doing that from 
the testing end. We're also looking at an Army prep school down 
at Fort Jackson. This is an opportunity to bring highly 
qualified young men and women that don't have an education 
credential, to go into Fort Jackson, our prep school which is 
going to start in May, and earn their GED. Long-term we want 
this to be a high school diploma-producing institution.
    We're also working with places like a location, a mall 
school in Pittsburgh. At this mall school, what they're able to 
do is those that drop out of school go to this mall school and 
at the mall school they earn their degree from the high school 
that they dropped out of. So we're working with that, that 
organization, to try to proliferate that in other locations 
throughout the country.
    Now, as to college, most youngsters want to go to college 
and most parents would like them to go to college. So all of 
the college benefits that we have are very helpful for the 
United States Army and I think for all of our Services.
    Some of the challenges for our soldiers have been, 
especially in this high tempo of operations environment, to 
continue on with their education and to serve the United States 
Army in the way that they've been asked. I was talking to 
Command Sergeant Major Sparks who is working at our Training 
and Doctrine Command. He's leading an effort to build the 
College of the American Soldier, where when you sign up with 
the United States Army you're going to sign up for college at 
the same time. That's going to be very powerful.
    With the advent of the Internet and the many colleges that 
are involved in partnering with the Army, to take the work that 
they do in basic training, in Advanced Individual Training 
(AIT), and credit those as legitimate college credits, whether 
they're medics or mechanics or signaleers--we're working with 
institutions to ensure that they can earn their college degree; 
they can be in the Army at the same time.
    So all of these benefits are very, very important to us.
    Senator Ben Nelson. In that regard, I just wanted to ask 
one question. Do you find that retention improves once you have 
a career established for them, where they get their education, 
they get to be in a field that they're interested in? Does that 
positively effect, as I would hope that it would, retention?
    General Bostick. We think it's very important. I don't have 
the correlations directly to retention, but I can give you--for 
example, we had about 260,000 soldiers taking tuition 
assistance courses last year. So while they're in the Army, 
some of them in Iraq and Afghanistan, 260,000 soldiers. We 
spent about $140 million on tuition assistance.
    So education is very important. We talk to the soldiers 
about it. We encourage them to do it while they're in their 
careers in the Army. Now, some take this on after they leave 
the Service. In working with the Veterans Department, we've had 
over $1 billion that has been spent on regular Army veterans to 
earn their education. So whether they do it inside the Army or 
post their Army career, that's up to them. But we're trying to 
build a pathway throughout their career where they can earn it 
from day 1, and whether they end up with a bachelor's degree or 
a master's degree or a Ph.D., that's really up to how hard they 
would like to work in their career.
    Senator Ben Nelson. Senator Chambliss?
    Senator Chambliss. While we are talking about the issue 
relative to primarily Army soldiers serving in Iraq while 
taking college courses over the Internet, I was amazed, 
general, at the number of young folks who I have talked to on 
every visit I have had over there that are doing exactly that. 
That was one reason for my question.
    While it may have seemed that I was honing in on Montgomery 
GI Bill benefits, I am particularly interested in Active Duty 
benefits that you are giving to these young folks and the 
opportunities that you are giving them also. I should know the 
answer to this, but I don't, but I'm assuming that is 
independent of Montgomery GI Bill benefits; is that correct?
    General Bostick. The tuition assistance?
    Senator Chambliss. Yes.
    General Bostick. Yes.
    Senator Chambliss. Okay.
    Admiral Kilkenny. Sir, we completely value education in the 
Navy. What we attempted to do this past year was look at where 
we think there's some interest, particularly in the community 
college market. We think it's very big. We started a program 
called Accelerate to Excellence, where we will pay for two 
semesters of community college while in the Delayed Entry 
Program (DEP). The recruit will then attend boot camp, an 
additional semester of college and A school in the United 
States Navy. Upon completion of A school, the recruit will have 
earned the required credits for completion of an associates 
degree.
    Last year we did it with aviation ratings down in the 
Pensacola area. We partnered with the junior colleges to allow 
them to get credit on their associate's degree for some of the 
courses they're taking and their skill sets in the Navy. We're 
finding that there's an active interest in that program. Again, 
this year we want to collect some data to determine how much of 
a market there is. But there's a lot of folks who can't afford 
to go to 4-year colleges who go to community colleges for the 
reasons I alluded to earlier. They're staying around to help 
mom and dad, earn a little bit of money. I think there's an 
opportunity.
    But clearly, every brief we get on the young generations of 
today, the millennials, education is talked about from the time 
they're about 4 years old. So it's clearly very important in 
their world, and it's very important for us to find ways to get 
an education prior to them coming in, when they're coming in, 
and when they decide to leave. It's very important.
    Senator Chambliss. General?
    General Vautrinot. Sir, let me point out first that 
recruiting falls under the Air Education and Training Command, 
all working together. Air University has had some great, great 
success in both the efforts that we have for recruiting and the 
retention that Senator Nelson mentioned.
    First let me talk about Community College of the Air Force. 
In 1972 it was started. We've graduated over 320,000 young 
airmen with associate degrees, over 17,000 last year alone. 
That is a fully accredited associate degree. More importantly, 
the Air University has just started a program called the 
Associate Baccalaureate Cooperative, over 25 universities with 
45 majors that provide the opportunity for each airman with a 
Community College of the Air Force degree, an associate degree. 
Twelve clicks on your computer and you are a junior in college, 
every one of your associate degree credits toward your 
bachelor's degree.
    It is entirely portable. As you point out, all our airmen 
in the field, all those that are deployed, have the opportunity 
to continue their education toward that baccalaureate with 
every single one of those credits counting. That program is in 
addition to tuition assistance.
    I want to thank you also, sir, for your work on military 
health care and for the Montgomery GI Bill, which helps them if 
they decide to leave the Air Force. This program helps us to 
retain them and have them better educated to meet the new 
mission.
    Senator Chambliss. General Tryon?
    General Tryon. Sir, our emphasis on education begins with 
attracting the quality youngsters from high schools and 
bringing them into the Marine Corps. We, like the other 
Services, have a raft of programs which permits our youngsters 
to continue, our marines to continue on with their education in 
a variety of areas.
    The online education we find these days is incredibly 
advantageous to our forces, particularly given the fact that so 
many marines are deployed in an expeditionary profile. Being 
able to get online and to access through tuition assistance 
programs or other programs on advanced education is very, very 
useful for us.
    As a discrete incentive for recruiting, again we 
concentrate on attracting those youngsters who want to be 
marines first and foremost, not specifically for the purpose of 
continuing a college education. However when they come to us, 
96 percent of them are high school graduates. They've been 
raised in an environment and a culture where they prize the 
value of an education. So we are in a position with the 
benefits that have been provided by this committee to help them 
achieve their goals.
    Senator Chambliss. Very good.
    This subcommittee recognized shortfalls in medical 
professionals back in 2006 and responded with enhancement of 
bonus authorities and stipends for medical and dental corps 
officers in both Active and Reserve components. I have two 
questions for you on this.
    Number one, are the expanded authorities being utilized and 
funded by the Services? Second, is money enough? In other 
words, based on your experience with recruiting in the medical 
field, are there other non-monetary incentives that either the 
Services by policy or Congress should adopt to improve our 
recruiting successes?
    Again, General Bostick, let's start with you.
    General Bostick. First, I'd like to thank you for the 
language that included and focused on the medical 
professionals. This has been a very challenging area for us. 
We've worked it very hard. Last year there was a good 
improvement in our nurse corps. We're still challenged in our 
dental corps and we're challenged in our medical corps, 
especially in the 4-year scholarship, the health professional 
scholarship program. So this is very important.
    The bonus that you approved for the critical skills bonus 
that is available to those that I just talked about, it is very 
important to them. Also important in this language is the 
mandatory service obligation, the reduced mandatory service 
obligation, particularly for our Army Reserve medical 
professionals.
    Also important in this language is that we have a 2K 
referral program. It doesn't seem like much maybe in the 
medical profession, but a lot of them, they know friends, they 
know other associates that might want to join, and word of 
mouth really helps us in recruiting, and having that 2K 
referral--just like we have for the enlisted--on the officer 
medical side is going to make a difference. It may be something 
we want to look at increasing in the future if this works out 
well for us.
    But this is a challenging area. We continue to work it very 
hard, but we appreciate the support that you've provided to us.
    Senator Chambliss. Admiral Kilkenny?
    Admiral Kilkenny. Sir, absolutely your support of us and 
these initiatives has been very beneficial. I alluded to in my 
statement that in the last 3 years, based on your authority 
given to us to increase nurse bonuses, we succeeded in mission 
last year. Every year that we increase the stipend, we've 
increased our numbers. We're happy to report that this year, 
based on the initiatives that you've authorized us, we've seen 
an increased activity that we haven't seen in the past, 
particularly in the Health Profession Scholarship Program for 
the medical students.
    Right now we're anxiously awaiting the February to March 
timeframe--when most of the medical schools make a 
determination on the students that they are going to accept. 
But we've seen an increase in activity and interest in the 
Navy's medical program based on what you've given us, and we're 
very appreciative of that.
    General Vautrinot. Let me begin with scholarships. We have 
been very successful in the Grow Your Own program I discussed 
and in scholarships. We've been able to meet 100 percent of 
those scholarships, and this year it looks like we're going to 
increase those as well. The Air Force did support the increase 
in scholarships and intends to do so next year as well. So 
thank you for your support and your help.
    In addition, particularly with our medical professionals, 
there are different areas that they like to see supported. 
We've seen success in the financial assistance program for 
physicians. That's the combined 42,000 a year. We had 22 of the 
33 available used last year.
    With regard to the accession bonuses for dentists, in the 
previous year we filled all of those slots for dentists. While 
there is no accession bonus this year, the loan repayment is 
working very well. Then of course, as my compatriots have 
pointed out, we've done very well in the nursing programs.
    We find also that the ability to more rapidly bring those 
folks into the United States military is very important. The 
processing for medical professionals is somewhat long and tends 
to be very serial. So anything that you could do on your 
committee that could either put legislation for parallel 
processing or could perhaps put some words in the policy that 
allow our general counsels to bring those folks through a 
little more quickly would be very much appreciated. So we are 
continuing to expand that and we thank you for your support.
    General Tryon. Sir, I defer to Admiral Kilkenny with 
respect to the medical recruiting. I applaud his great efforts.
    I would also just pass along that the quality of the 
doctors and the corpsmen that work with and serve along side 
marines is absolutely superb. We thank the Navy for that.
    Senator Chambliss. General Vautrinot?
    General Vautrinot. If you could think of the engine instead 
of tomato juice, sir. [Laughter.]
    Senator Chambliss. There you go.
    It is interesting you make that comment about speeding up 
the process. That is something surely, Mr. Chairman, that we 
ought to be able to work on. I just tell staff, let's be sure 
we look closely at this and work with all of you with respect 
to seeing how we can make sure that whatever paperwork or 
whatever holdups in the bureaucracy can be eliminated, not 
circumvented by any means, so that we do everything we can to 
try to speed that process up. That should be easy for us.
    General Vautrinot. Thank you.
    Senator Chambliss. So thank you very much for that.
    Thank you, Mr. Chairman.
    Senator Ben Nelson. Thank you.
    Senator McCaskill.
    Senator McCaskill. Thank you, Mr. Chairman.
    I will begin with General Bostick. Tell me what recruiters 
get in terms of compensation or possibilities for advancement 
or promotion, in terms of how well they do at recruiting? What 
incentives are there for recruiters in terms of how they 
produce?
    General Bostick. There are a number of incentives that we 
have, everything from coins and hats and jackets and medallions 
to financial incentives that they can earn as a successful 
recruiter. Each year we recognize those soldiers at an annual 
training conference. One of the awards that they all strive to 
achieve is the Morrell Award. They also have rings that they 
earn.
    Each of these are earned based on points that they achieve 
based on the numbers of recruits that they bring in. There are 
also financial payments that are made, recruiter incentive pay 
that you authorized in one of our initiatives that we've been 
trying. That recruiter incentive pay is for those that go above 
and beyond the call of duty, the average rate that's expected 
for those in Recruiting Command. Those that do above that can 
earn financial incentives.
    There are also meritorious promotions.
    Senator McCaskill. Could you go into detail about the 
financial incentives? What kind of money are we talking about 
for a recruiter if they meet a certain quota or go above a 
certain quota?
    General Bostick. It's not significant initially. It's about 
$100 a month if you go over your required write rate for the 
command. So if the write rate for the command is 1.7 and you're 
doing 2 or more, then you could earn $100 or so that month. If 
you do it consistently, it can go up to $300 for a quarter, 
$300 to $600 for a quarter, and the maximum for a year would be 
up to about $5,000. Those are for recruiters that are the very 
best recruiters that are performing out there.
    We're still studying this program to see if it's adding the 
kind of lift. The whole idea was to move the mass middle of 
U.S. Army Recruiting Command and right now we're not sure that 
that part is happening. Part of that is because of the 
environment that we face, but we find that the great soldiers 
that recruit would recruit without any coins, hats, jackets, or 
financial incentives. Folks like Sergeant First Class Webb are 
going to recruit like a hero every day of the week all year 
long. We're working to still move the mass middle.
    Some of that is due to training. We have a very intense 
training program that's ongoing throughout the command. We're 
using the Internet and a virtual classroom trainer that we're 
able to train and get all of the recruiters up on the net in 
training with our schoolhouse from Fort Jackson or from the 
headquarters of the battalion.
    There are meritorious promotions that are available for 
recruiters that elect to stay within the recruiting command and 
convert to 79 Romeo and do well in the recruiting and they can 
be promoted. Then of course, the different leadership positions 
that they could move up in are very competitive for our best 
recruiters.
    Senator McCaskill. The young man who engaged in 
inappropriate recruiting tactics that were exposed in the news 
report in St. Louis, what happened to him, do you know?
    General Bostick. I can't say what happened to him 
specifically. I can follow up with you and get the details. I 
can tell you that we investigate every allegation, and it 
doesn't matter if it's an anonymous allegation, or if it's an 
allegation we hear about on CNN. But if there is an allegation 
against one of our recruiters, we will investigate it.
    We have about 8,000 recruiters and on any given year we 
have about 15 percent that will receive allegations. Two to 3 
percent of those allegations, something under 200, are 
substantiated and we take the appropriate actions that are 
necessary based on the inappropriate actions that were taken.
    The other thing we do is we talk about our Army values and 
our warrior ethos every day. There is not a setting ever where 
recruiters and leaders come together where we don't talk about 
the importance of our values and integrity. We realize that we 
are ambassadors for the Army. We're on the front lines. We 
represent the Army to America.
    Senator McCaskill. It's heartbreaking. I know it's 
certainly heartbreaking to all of you because of your 
dedication to what you do and literally the tens upon thousands 
of men and women in uniform whom I admire so greatly. But 
clearly we have had some heartbreaking incidents, whether it's 
the active military that have been caught actually stealing 
around contracting in Iraq or whether it's some of these 
recruiters.
    I hate it for the military because when those news stories 
aired in St. Louis the disservice they did was to you and to 
the men and women who carry out what they do so well for our 
country and that we're all so proud of. So I want to make sure 
that when that happens that not only are there consequences to 
that recruiter, but that there is something that happens 
throughout the military to say: No matter how badly we need 
people to enter into the military, we should never ever do 
this.
    The problem, of course, is that the substantiation up until 
very recently--I know you have instituted a buddy system, but 
it's my understanding there are still recruiters that are one-
on-one with potential recruits.
    General Bostick. You can be one-on-one with a potential 
recruit, but not of the opposite sex. There is a buddy system 
that we have employed that if you're with the opposite sex you 
must be with a buddy, male or female. Then we have a buddy 
system for other reasons, for safety. A lot of our soldiers are 
coming out of a combat environment. They're coming in here to 
recruit. They have a lot of different stresses and things that 
are on their mind in the families and what they're remembering 
from Iraq or Afghanistan.
    It's important that we're in touch with those soldiers. So 
we have a buddy system for that reason as well.
    The other thing that we do, whenever an incident happens is 
publicize generically each month what happened and what the 
punishment was for that activity, and we reinforce that and get 
it out to the entire command, to every soldier, so they have 
the opportunity to see what soldiers are doing and what the 
consequences of those actions are.
    Senator McCaskill. That's terrific. I think that the 
substantiation, though--as an old prosecutor, there is always a 
disagreement when you have two people who were in a 
conversation. The person that is accused of wrongdoing 
generally says: ``That's not what I said.'' The person who is 
accusing says: ``No, it is; that's what they said.'' That's why 
I think the cameras are such a good idea.
    Obviously, I think just the presence of the camera makes 
sure that we are--it's great that you can review for training 
purposes. How is the pilot project going and when will we see 
results from the pilot program?
    General Bostick. It's a bit early to tell. We started this 
last year in New York City, and we spent about $200,000 and we 
put cameras in about 38 of our different stations. We had 15 
recruiter impropriety allegations, of which all except for one 
was unsubstantiated.
    Senator McCaskill. By looking at the camera?
    General Bostick. None of the events happened in the 
station.
    Senator McCaskill. I see.
    General Bostick. So it was very difficult. We still have 
the buddy system, we have the camera there. We're looking at 
other options that we can provide. But right now I think it's 
too early to tell. But the incidents that you bring up, a 
couple of them have happened in the station. We have great 
turnover of soldiers. So if it's going to happen, then we'll 
pick that up. But we're still taking a look to see if this is 
something that we need to spread further.
    But we think the buddy system has really helped us, 
especially from the emotional standpoint of soldiers taking 
care of each other.
    Senator McCaskill. I applaud what you're trying to do. I 
know you all are trying to do your best and I just wanted to 
make sure we're paying attention, because with the pressure and 
with the incentives I know that it's possible that someone's 
going to shade what they say in order to get someone to sign 
the dotted line. Frankly, that may be more problematic with 
some of our recruits than the issues that have been talked 
about by some of the other Senators this morning.
    Thank you all very much for being here.
    Thank you, Mr. Chairman.
    Senator Ben Nelson. Thank you, Senator.
    I want to thank the panel as well. Initially, I knew that 
reports were going to be very positive as to the success of the 
recruiting. That's in large part due to your commitment and 
continuing to adjust the system and question what you've been 
doing based on what you now know or what you're projecting the 
needs are for the future, because that is essential.
    So I congratulate you and your commands for what you've 
done and challenge you to keep doing it, and let us know, as 
you have today, what we can do to adjust the law, bring in new 
incentives, or whatever would be required, that will make it 
more likely that you'll be able to continue to achieve those 
successes in the future, because that's what it's obviously all 
about.
    So thank you very much.
    Now I'm very anxious to have the next panel come in and 
talk to some of the recruiters and hear the story that they 
have to tell. Thank you very much. If we can have the other 
panel.
    Do any of you have any prepared remarks or are you 
expecting most of the discussion and dialogue to be responding 
to the questions that we might ask? Any prepared remarks?
    Sergeant Britton: Yes, sir.
    Senator Ben Nelson. Okay. Starting at this end, Sergeant 
Britton, do you have any prepared remarks?

STATEMENT OF SSGT JAMES M. BRITTON, USMC, ACTIVE DUTY RECRUITER

    Sergeant Britton. Sir, I would just like to take the 
opportunity to thank you for allowing me to be here today to 
speak in front of you. I also thank you for the continued 
support that you've given the Marine Corps and will continue to 
do in the future. I appreciate it.
    Senator Ben Nelson. Thank you.
    Sergeant White.

 STATEMENT OF MSGT DAVID B. WHITE, USAF, ACTIVE DUTY RECRUITER

    Sergeant White. Sir, I'd like to thank you as well, you and 
the committee. It's an honor to be here today to represent the 
Air Force and the men and women of the Air Force Recruiting 
Service.
    Senator Ben Nelson. It's an honor for us to have all of you 
here, too.
    Master Chief Petty Officer Brummer.

STATEMENT OF MCPO TRAVIS P. BRUMMER, USN, ACTIVE DUTY RECRUITER

    Master Chief Petty Officer Brummer. Mr. Chairman, good 
morning, and distinguished guests. Thank you very much, and I'm 
here to say thank you very much and represent the United States 
Navy.
    Senator Ben Nelson. Sergeant Webb.

  STATEMENT OF SFC RICKY LEE WEBB, USA, ACTIVE DUTY RECRUITER

    Sergeant Webb. Good morning, sir. Mr. Chairman and other 
distinguished guests: My name is Sergeant First Class Rick Webb 
and I'm an Army recruiter. I've had an awesome opportunity to 
serve in my hometown of Charleston, WV, where I've been in the 
Recruiting Command since 2003. I've also been blessed with the 
experience of being an Army drill sergeant and I was an 
instructor for basic combat training at Fort Jackson, SC. 
Having a working knowledge of basic training has allowed me to 
overcome or to address some of the fears that today's youth 
might have about going into training.
    Recruiting America's youth to become today's future 
soldiers has been a unique experience and has offered many 
challenges. I've seen many changes in my short time as a 
recruiter and will probably see many more. Recruiting is not 
business as usual.
    The leadership in my time has changed tremendously. The 
organization has changed from a sales type organization to more 
of a leadership-focused organization. Recruiters are engaged 
daily in a fight that requires them to be mentors, coaches, and 
even guidance counselors.
    I am thrilled and I am humbled. I'm from West Virginia. I 
have been out of the woods. This is my first time to 
Washington, DC, so I'm very humbled at this opportunity to talk 
to you about the challenges of recruiting.
    I am eager to answer any of your questions.
    Senator Ben Nelson. Thank you. Thank you all.
    You listened to the generals and admirals about what they 
have attempted to do and what we've done working together to 
make the military as an All-Volunteer Force, one that is 
competitive with the rest of the world. Obviously--it's obvious 
we have to be competitive if we want to be able to attract 
quality recruits. Maybe you can give me some idea and the 
committee some idea of the kinds of things that when you're on 
the ground recruiting seem to be the best tools, the best 
incentives, and in some cases among the best reasons why a 
recruit will sign up, in addition to your strong sales pitch, 
I'm sure. But what are the tools and the available incentives 
that work best when you're trying to recruit somebody to your 
branch?
    We'll start with you, Sergeant Britton.
    Sergeant Britton. Sir, just like General Tryon said 
earlier, the Marine Corps attracts a certain----
    Senator Ben Nelson. If you want to be a marine first, I 
understand that. [Laughter.]
    Sergeant Britton.--type of individual, sir, yes. The way I 
always explain to the future marines is you have to--certain 
people join. People that join the Marine Corps want a 
challenge. They want to be the best. The jobs, bonuses, all 
those things are talked about after the fact is established 
that they want to become a marine. I think that is probably our 
most successful tool that we have.
    You see the commercials that the Marine Corps has. It talks 
about honor, country, duty, not so much the monetary value. I 
think that's why the Marine Corps has been such a great force 
over all the past years and will continue to be later on down 
the road.
    Senator Ben Nelson. Thank you.
    Sergeant White.
    Sergeant White. Yes, sir. I believe people join the Air 
Force for a variety of reasons. Number one, as General 
Vautrinot pointed out, the quality of life. The Air Force 
quality of life has been superior to me, to my family, and to 
those I know in the Air Force. I believe it's that word of 
mouth, that perpetuation, as she stated, that brings people to 
the Air Force.
    Education is also a very important tool. In the Air Force 
you're either going to college or you're graduated; it's that 
simple. You're automatically enrolled in the Community College 
of the Air Force and you're taking classes and you're pursuing 
that associate degree from the Community College of the Air 
Force or you're pursuing a bachelors, masters, or Ph.D.
    Those are the main reasons people join the Air Force.
    Senator Ben Nelson. In that regard, let me just follow up 
with a question. Now moving to Cyber Command as part of the Air 
Force's continuing mission, you're going to be looking at 
people with computer capabilities. Obviously, you ought to 
start with them when they're about 5 years old because they all 
top the rest of us. But as you're looking at these recruits and 
you know which you're going for, what are you able to offer 
somebody that has that strong interest in the technology and 
the increases in technology that are simply going to be part of 
the future of the Air Force and the future of all forces as we 
work together, seeing how Cyber Command intersects with every 
branch of the military?
    How do you approach that? Is that a specific area you look 
for or is that something that's developed as a result of the 
education?
    Sergeant White. Sir, cyberspace is new to us. Our 
recruiting efforts haven't changed. We recruit those that 
qualify for highly technical career fields and we continue to 
do that and place them into cyberspace as they come in. So at 
this time, to my knowledge we do not have a system to test 
specifically for cyberspace, but as a recruiting command we set 
our standards and we bring them in and place them to the needs 
of the Air Force.
    Senator Ben Nelson. Okay.
    Master Chief Petty Officer Brummer. Mr. Chairman, the 
United States Navy--the sailors out there who are representing 
us as recruiters, they're doing an awesome job. You have to 
walk the walk. Every one of these servicemen in front of you 
today meet young men and women who want to be like them. I have 
found that as a sailor you have to go out there and tell your 
story of what you did.
    As a young man growing up in southwest Iowa and being able 
to be stationed in many different places around the world and 
be on cruises, when I came back to recruiting duty to Hometown 
USA, there's many people in Omaha and Council Bluffs that have 
no idea what a Navy guy does. It's been an awesome opportunity.
    With the education side, I was able to go to the University 
of Bellevue, and you meet other students and you meet other 
service men and women. I tell you, the young men and women out 
there, they see us as recruiters with our laptops, our 
cellphones, our text messaging, and they're interested. It 
really is about an interaction between two individuals and 
parents and grandparents and influencers. Millennials want to 
serve. These young men and women that we talk to today, they're 
excited, and we have a great story to tell. It's been an 
awesome opportunity.
    Senator Ben Nelson. Obviously you've been affected by the 
influence of Nebraska right across the border.
    Master Chief Petty Officer Brummer. Yes, sir.
    Senator Ben Nelson. I certainly appreciate that. [Laugher.]
    Master Chief Petty Officer Brummer. Just moved from Omaha, 
sir. [Laughter.]
    Senator Ben Nelson. Sergeant Webb?
    Sergeant Webb. Sir, I have to go back to another story.
    Senator Ben Nelson. All right.
    Sergeant Webb. In 2003, I went on my very first interview. 
In recruiter school they taught us how to be salesmen, taught 
us how to use a program, at that time Army Sales 7.0. You type 
in the applicant's name, it would play the patriotic music. I 
was sitting there with a young lady from my high school and the 
father was sitting directly to my right on the sofa. I was very 
nervous. I took a deep breath, closed my laptop, shoved it away 
from me.
    He said: Sergeant Webb, is there a problem?
    I said: Yes, sir, there is.
    He said: Well, do you mind explaining the problem?
    I said: Well, I'm having a hard time using this program. 
I'm not a salesman, but do you mind if I talk to you folks?
    They both smiled and said: Well, that's what we would much 
rather prefer.
    I went on telling my Army story. Now, I'm from a small town 
outside of Charleston, WV, called Allen Creek. I used to carry 
rain water in 5-gallon buckets to do my laundry. I used to take 
baths in a creek. I went to a rich school, a rich high school 
in Charleston, and they didn't treat us like they did the other 
kids. We were just treated differently.
    The Army has allowed me to achieve so many of my goals. I 
saw an Army recruiter in my hallway in my school and I swelled 
up. I was 128 pounds soaking wet. I went down the hall and 
talked to the Army recruiter. The way that he recruited me, 
they way that he showed me--and he wasn't completely honest 
about everything. So I use that to my advantage now. I know the 
way he talked to me about things, it wasn't exactly the truth 
once I became a soldier and knew the way of the Army. So I use 
that technique.
    I do talk about some of the incentives, but I establish 
that later, like someone else on the panel alluded to. But it's 
primarily serving the country, serving my country. I was a 
State trooper in West Virginia; I have an education--things I 
would never have been able to achieve without the United States 
Army. I know you can get that with the other branches of the 
Service, too. So it's about pride and serving my country. The 
things I've been able to do, regardless of where I came from; 
when I tell that and they see the flash in my face--and I hope 
the panel can see that--that's what I do. That's my Army story. 
I tell my Army story. It's about guiding, leading, mentoring. 
All the incentives are secondary to serving my country.
    Senator Ben Nelson. Very good.
    Senator McCaskill asks that I ask you the following 
question, to all of you, obviously following up on her concerns 
and all of our concerns and your concerns about the 
improprieties. She said: ``Can you discuss your views on 
improprieties by recruiters? How prevalent are they? What are 
the biggest causes? What more do you think can be done to 
prevent them, or are we already doing enough?''
    Anybody, just jump in as you feel motivated.
    Sergeant Britton. Sir, for the Marine Corps, I feel that 
these are very isolated incidents. This doesn't reflect the 
conduct of Marine Corps recruiters at large. As far as measures 
to keep this from happening, at least from our standpoint I 
don't think there's anything other than the positive Marine 
Corps leadership that we are taught as senior marines.
    Senator Ben Nelson. Ethos and values of the individual 
doing the recruiting in the first place.
    Sergeant Britton. Yes, sir. It's our senior leaders' job to 
watch over us. It's a continued education of the leadership. 
Leadership through training, and that's worked for us and I 
think that's going to continue to work for us in the future, 
sir.
    Senator Ben Nelson. Sergeant?
    Sergeant White. Sir, the Air Force has zero tolerance 
relating to misconduct. It starts with our chief of staff and 
filters on down into the recruiting command. The Air Force 
has--it's a .05 percent of misconduct. Although one is too 
many, it's a very low percentage.
    As a supervisor of 16 officer sections and recruiters that 
recruit health professionals, I don't tolerate it. I know 
General Vautrinot doesn't tolerate it and it's just not 
accepted in the Air Force or the recruiting service.
    Master Chief Petty Officer Brummer. Mr. Chairman, for the 
United States Navy, we're very fortunate. Admiral Kilkenny, 
once taking command, greets every sailor who goes into 
recruiting duty at the schoolhouse where we get trained to be 
recruiters. He first talks to every sailor, officer and 
enlisted, and explains his expectations. At the end of the 
conversation in the room, he stands at the door, shakes our 
hand, and issues a small little card to remind them of his 
expectations: honor, courage, and commitment.
    At the end of that, he doesn't just stop there. Most 
recently around Christmas time, he put out a video, a podcast, 
to remind all the sailors of his expectations.
    It starts with leadership. You're absolutely right, there 
is zero tolerance. One is too many. As a leader, that's what 
Admiral Kilkenny has done.
    Senator Ben Nelson. It's amazing how in politics if you get 
introduced at a sporting event as a senator or governor, it's 
amazing how one boo can drown out 100,000 cheers. It's sort of 
the situation here. One bad situation can gain so much 
attention, and it's because we accept zero tolerance. We don't 
think it ought to happen. But that doesn't mean it's prevalent. 
I think that's the point you're making.
    Sergeant Webb, you may have another story to tell us.
    Sergeant Webb. Sir, since I've been recruiting in my 
company of 25 to 30 recruiters I have not seen one single 
recruiting investigation of impropriety. We have watched the 
video in our office. We get it sent down to each office and we 
sit down as a station and we watch the video, and it is an 
embarrassment. But as far as my knowledge, I haven't seen it. 
We've come along with great strides with the buddy program and 
I think the cameras in the stations would be a great idea.
    Senator Ben Nelson. Senator Chambliss?
    Senator Chambliss. There is a lot of pressure on you, 
obviously, to meet goals. There are incentives out there. 
Obviously, I know you have to watch that very close.
    One issue that we have as a general population issue in 
America is the issue of obesity. When you have a potential 
recruit coming in to see you, sometimes I know you can tell 
that they have some physical issues and sometimes probably you 
don't even know that they do. But we've heard from some of the 
trainers, sergeants around the country from each branch of the 
military, that they're getting some kids in in greater numbers 
now that don't have the physical qualities that they need to 
have or that they expect.
    From a recruiting standpoint, what do you tell your 
recruiters? What do you tell them to look for? Are they aware 
of these issues? What are you telling potential recruits or 
what are your folks telling those potential recruits about what 
kind of shape they need to be in to be a marine? Or what is the 
lay of the land out there with respect to this issue in each 
Service?
    Sergeant Britton. With the Marine Corps, sir, these 
individuals understand that they need to be in a certain 
physical shape, not in peak physical shape to begin recruit 
training, because that is what Marine Corps recruit training is 
for. Before they get there, to start the process, it is our job 
as recruiters to get them to that appropriate first level.
    I know in our offices we have a meeting once a month on a 
Saturday and each week on every Tuesday and Thursday where our 
future marines come in. They'll run with the marines at the 
office, go to the gym, anything to get them in shape and get 
them prepared for recruit training.
    As far as running into a lot of problems with people coming 
in, the obesity issue, the way we address that, if they are 
grossly overweight we kind of put it on them. We invite them to 
come work out with us. That's showing dedication to a goal that 
they want to achieve if they're serious about it. If indeed 
they are serious, they will lose the weight and ultimately 
begin their journey to become a U.S. marine.
    Senator Chambliss. No way a fat guy like me can scale that 
mountain in your ad on TV. [Laughter.]
    Sergeant White?
    Sergeant White. Sir, like the other branches, we have 
height and weight standards that we must abide by. When we sit 
down with an applicant, we go over that. On the initial visit, 
we'll take an estimated height and weight from the applicant. 
Really, that's our starting point with them, to determine 
whether we should go on with the process or not.
    It's really on the applicant to lose the weight. However, I 
don't know of a recruiter out there that's not willing to go 
out there and run with them. I've had physician recruiters go 
out and run with doctors to lose the weight so that they could 
enter the Air Force. It happens, and that's what recruiters do. 
They're willing to go the extra mile, but the applicant has to 
meet us halfway, so that they can in fact meet those standards 
and begin the processing.
    Master Chief Petty Officer Brummer. Sir, for the United 
States Navy, as Admiral Kilkenny mentioned earlier, we have 
implemented numerous different projects in the delayed entry 
program, with YMCA passes to help work out. Young men and women 
who join the United States Navy, they don't want to go to boot 
camp to fail. So we do our best as possible to encourage young 
men and women to work out. Our sailors out there who request 
recruiters, they're leading the charge, and we've also had some 
retired or prior service SEALs that help mentor. So it's about 
lead, mentor, and train, and we're making sure that the 
recruiters are out there equipped, and it's been a great 
opportunity. They know exactly what's expected of them.
    Sergeant Webb. Sir, the height and weight standard is the 
height and weight standard. However, I'm one of those few that 
would like to see it changed a little bit. It's changed since 
2003, but the standard I think was set many, many years ago. 
Unfortunately, we have a McDonald's and Burger King on every 
corner and the generation that we're dealing with every day, 
they're more involved with their computer and their 
Playstation, their XBox, so they stay inside the house. They 
don't get out and run the hills of West Virginia, like I did, 
and stay mean and lean.
    But we encourage recruiters to get out there and help the 
kids. Got to go to a story again. I went to a Wal-Mart and I 
had to get tires on my vehicle. While I was waiting to get my 
tires done I walked down the gaming aisle. I wanted to waste 
some time while I was getting tires on my vehicle. I saw a guy 
who was working in the tire area and he was playing Tiger 
Woods. I'm a big golfer. So he said: Do you want to play a 
hole? I said: I'll play a hole. So we switched back and forth 
playing Tiger Woods on the Playstation. I never said a word 
about the Army, and I'm in uniform.
    Well, the second day I showed up because I had to get tires 
on the back. They didn't have them in stock. After a little bit 
of playing the game, he said: You know, you've been here 2 days 
and you've not once mentioned the Army to me. I see your 
recruiter patch; I know you're a recruiter.
    I said: Well, Steve--name tag--I said: The way I see it, if 
you're interested in the Army, you will talk to me about the 
Army. He said: Well, I've been told all my life that I'm a fat 
boy. This guy was 5 foot 9, 269 pounds, so he was obviously 
over the standard.
    So I talked to Steve at length about, you take 2 weeks of 
your own time and you show some progress and I'll be glad to 
work with you. In 2 weeks this guy lost 15 pounds on his own 
time. I took the next 3 months working every morning with this 
guy. I would meet him at 6 o'clock in the morning, 2 hours 
before I even had to be at work, just because he had a desire, 
a strong desire. He did 4 years of JROTC in high school and he 
just had a strong desire to serve his country, and I took the 
time out to help him out.
    But we have the ARMS test that even allows recruits to--and 
the general alluded to what the acronym stands for--Assessment 
of Recruiter Motivation and Strength--meet the physical 
endurance along with cardio endurance. It's able to measure 
that. But I would like to see it changed even more so than what 
it has.
    Senator Ben Nelson. Did he make it?
    Sergeant Webb. Absolutely, he made it. He's been to Iraq 
two tours. He's already a staff sergeant. He threatens to pass 
my rank up.
    Senator Chambliss. I'm betting on you, sergeant.
    We are constantly looking for policy changes that we need 
to make your life better, to make it easier, as well as to make 
the life of our men and women in uniform better. Do any of you 
have any suggestions of any additional tools that we need to 
give you to make sure that you're able to do your job in a very 
professional way?
    Sergeant Britton?
    Sergeant Britton. Sir, I feel one of the difficult things 
that we experience in our area sometimes involves obtaining a 
list of names of seniors from some of the local schools. A lot 
of times what happens, even though the lists are supposed to be 
released, they're giving out forms for the parents to sign so 
their names won't be on the list that we receive from the 
school, if we even get the list from the school.
    The reason those lists are so important--obviously, not 
everyone in that senior class is going to join the Marine Corps 
or any branch of the military. But it's our job as recruiters 
to go out there and contact as many of these young individuals 
as we can, to hopefully have an impact on somebody's life. Even 
if it's not joining the Marine Corps or one of the other 
branches, it at least--sometimes I've talked to young men 
before that weren't going to join the Marine Corps, but at the 
same time they didn't know what they were going to do. After we 
were finished talking, the guy ends up starting college.
    It works out better for everybody that way. That way, not 
only do we help that young man or woman to become successful 
and start their journey, it allows us to do our job and better 
contribute to the community in really returning the citizens, 
well-trained citizens, back to the community where we took them 
from once they decide to get out of the Marine Corps. It starts 
right there.
    That's probably the biggest thing that I would change if I 
had to do it, sir--better obtaining lists from the schools and 
a little bit more cooperation, not in all cases though. 
Obviously that's not happening, but there's some cases out 
there where I think they may be trying to find a loophole in 
the law that was passed, and I think that's something that 
should be addressed, sir.
    Sergeant White. Sir, as General Vautrinot pointed out, our 
scroll process is getting health professionals approved through 
this office. As you stated, you were willing to look into that, 
and we thank you for that. That would be a tremendous asset in 
expediting some of our health professionals on Active Duty.
    The other thing would be the increase in bonuses for health 
professionals. Again we thank you for the funding. However, 
some of that funding doesn't necessarily filter down through 
each branch equally. There are different incentives in 
different programs. As we see it from the Air Force, we're now 
competing against our brothers and sisters in arms in a very 
competitive market for these health professionals.
    What I would ask is that we do some equal approval on 
bonuses for health professions, as I believe all branches are 
hurting in that field.
    Master Chief Petty Officer Brummer. Sir, for the United 
States Navy I would say that we really appreciate the 
continuing support on the bonuses. It's allowed us as 
recruiters to focus on the needs of the Navy and be flexible on 
the different communities, such as medical and for the Navy 
SEAL and the global war on terrorism ratings. Again, I thank 
you for that support and that's the continued support that 
every recruiter out there enjoys from some of these tough to 
fill ratings during this time of need.
    Sergeant Webb. In my area of Charleston, WV, sir, the 
education system seems to be failing. I don't know the way 
they're even teaching math. When I was in school we didn't have 
a calculator. The generation now, they get taught math with a 
calculator. I think one tool that would be helpful to all the 
branches is maybe allowing a calculator with this new 
millennium to take the ASVAB test.
    I don't know--if you just ask around the room, you'll 
probably find, what's your worst subject in school, a lot of 
the people in here are going to say math. I mean, they can't 
even carry the one, if you will. So maybe if it was implemented 
that they could use a calculator on taking the ASVAB we'd 
probably see a spike in the mathematics section of the ASVAB.
    The measurement--the Armed Forces Qualification Test (AFQT) 
is the score, the entry level score, and that AFQT score comes 
from math knowledge, arithmetic reasoning, paragraph 
comprehension, and reading--word knowledge, rather. I think the 
biggest problem is they can't pass the math because they're so 
used to using that calculator. So that would be the one thing I 
would like to change.
    Senator Chambliss. That's a good point.
    Please know that we all do this, but I make it a particular 
point to visit with enlisted personnel whether I'm on a base in 
the continental United States or overseas. Visiting with 
enlisted personnel over the last 13 years, I am so impressed 
with the quality of young men and women that you are recruiting 
in every branch. We thank you for the great job you're doing. 
We thank you for your commitment to freedom, and we thank you 
for your sacrifice that you're making on behalf of all 
Americans. Thanks for being here today.
    Thank you, Mr. Chairman.
    Senator Ben Nelson. Thank you, Senator, and I want to add 
my appreciation to those remarks as well.
    Obviously, the challenges are out there with an evolving 
military, with new commands, Cyber Command, new challenges that 
will have to be met with recruiting and retention. I hope that 
as you encounter those challenges and you see where we could be 
helpful, as you just suggested with lists and perhaps other 
areas as well in the professional field, that you'll go through 
your command or directly, will make us aware, because we want 
to be a partner with you in this recruiting that you're doing 
and a partner with retention, which is also extremely 
important.
    We end up with an awful lot invested in a soldier and we 
don't want that investment to end. If we can keep the 
recruitment of a family to begin with, a parent, the parents 
and their son or daughter, and then at the retention level it's 
another family--now it's a husband-wife, wife-husband, 
children. So everything that we can do to make the military 
more attractive is not only in our best interest, it's the 
right thing to do for the men and women in an All-Volunteer 
Force.
    So I thank you for what you continue to do and we want this 
partnership to continue, and that's extended, of course, to 
Admiral Kilkenny and to the generals as well.
    So thank you very much. With that, Senator Chambliss, this 
hearing is adjourned.
    [Questions for the record with answers supplied follow:]
           Questions Submitted by Senator Joseph I. Lieberman
                        recruiting and retention
    1. Senator Lieberman. General Bostick, what is the Army Active Duty 
end strength as of the end of the January 2008?
    General Bostick. 523,512.

    2. Senator Lieberman. General Bostick, what is the Army projection 
for Active Duty end strength as of September 30, 2008, and September 
30, 2009?
    General Bostick. The Army projection for Active Duty end strength 
as of September 30, 2008, is 534,900. The Army projection for Active 
Duty end strength as of September 30, 2009, is 542,700.

    3. Senator Lieberman. General Bostick, are there internal Army 
recruiting goals in relation to ``Grow the Army'', aside from the 
published 80,000 recruits per year? If so, what are they, and why are 
they not formalized?
    General Bostick. No--there are no internal recruiting goals in 
relation to ``Grow the Army'' above the published 80,000 mission.

    4. Senator Lieberman. General Bostick, can you provide annual 
recruiting, retention, and end strength goals through the completion of 
``Grow the Army''?
    General Bostick. Recruiting, retention, and end strength goals for 
2008 are 81,600, 65,000, and 534,900 respectively. Recruiting, 
retention, and end strength goals for 2009 are 80,000, 66,300, and 
542,700 respectively. Recruiting, retention, and end strength goals for 
2010 are 75,800, 67,600, and 547,400 respectively.

    5. Senator Lieberman. General Bostick, what is the basis of the 
goal of 90 percent of recruits having a high school diploma as opposed 
to a General Equivalency Degree (GED) or other equivalent?
    General Bostick. The Department of Defense (DOD) established the 
goal of 90 percent High School Diploma Graduates (HSDG) based upon 
attrition analysis that showed non-HSDG soldiers attrit at a higher 
rate. The goal was a means to ensure cost-effectiveness associated with 
the enlistment and training expenses that are expended when soldiers 
fail to complete their first term of enlistment. The Tier Two Attrition 
Study (TTAS) is a study to allow better identification of non-HSDG 
future soldiers that will attrit more like HSDG soldiers.

    6. Senator Lieberman. General Bostick, do studies show a relation 
between this achievement and the propensity to complete a first term of 
service?
    General Bostick. More than 40 years of research indicates that 
enlistees who are high school graduates are much more likely to 
complete their first term of enlistment than non-graduates (80 percent 
versus 50 percent). In 1987, the DOD implemented a three-tier system to 
classify education credentials. DOD developed the system after research 
indicated a strong relationship between level of education and 
successful completion of the first term of military service (Laurence, 
1997; U.S. Department of Defense, 1996). Tier 1 includes regular HSDGs, 
adult diploma holders, non-graduates with at least 15 hours of college 
credit, and homeschool graduates who score in Test Score Categories I-
IIIA (the top half of the Armed Forces Qualification Test (AFQT)). Tier 
2 comprises alternative credential holders such as those with GED 
diplomas, or certificates of completion or attendance, and Tier 3 is 
composed of non-high school graduates.
    Two sources available on this topic are:

          Laurence, J.H., Ramsberger, P.F., and Arabian, J.M., 
        Education Credential Tier Evaluation (Alexandria, VA: Human 
        Resources Research Organization, 1996); and
          Laurence, J.H., Does Education Credential Still Predict 
        Attrition?, paper presented as part of Symposium, Everything 
        Old is New Again--Current Research Issues in Accession Policy, 
        at the 105th Annual Convention of the American Psychological 
        Association, Chicago, August 1997.

    7. Senator Lieberman. General Bostick, can you explain the initial 
statistics from the Assessment of Individual Motivation (AIM) that you 
alluded to?
    General Bostick. The AIM test is given to applicants as part of the 
TTAS. The intent of the TTAS study is to identify criteria other than 
education credentials that predict an applicant's risk of attrition. 
The current cutoff score to meet the TTAS standard is 102, which 
represents the 50th percentile of all applicants taking the test. Early 
indications show promise that the TTAS can be used to reduce the risk 
of attrition, particularly before the 18-month mark. According to the 
latest report from the Army Research Institute, those who pass the TTAS 
screen, scoring 102 or higher, had lower attrition rates than those who 
scored below 102 (8.3 percent vs. 12.1 percent at 6 months, 15.2 
percent vs. 19.7 percent at 12 months, 20.9 percent vs. 26.8 percent at 
18 months, and 24.7 percent vs. 31.4 percent at 24 months). Although 
the TTAS study shows improvement, Tier Ones continue to have the lowest 
attrition rates. Currently, the Army is exploring ways to improve the 
TTAS metrics and increase its reliability in predicting attrition.

    8. Senator Lieberman. General Bostick, do Army studies show a 
significant performance difference in relation to success on the Armed 
Services Vocational Aptitude Battery (ASVAB)? While certain low scoring 
recruits go on to perform very successfully, I would like to know the 
impact across the force, not anecdotal information. Please provide any 
relevant studies.
    General Bostick. The ASVAB measures an applicant's aptitude in a 
wide range of skills (mechanical, technical, electronic, clerical, 
etc.). For each of these skills, the applicant receives a line score. 
Each military occupational specialty (MOS) has a set of minimum line 
scores which applicants must meet to qualify for that MOS. 
Historically, these line scores have been good predictors of success in 
the training base. The Army Research Institute recently conducted a 
study to determine the optimal line score cutoffs. This study, along 
with other resources, is currently being used to validate or refine 
current line score cutoffs. Additionally, the ASVAB is used as part of 
the AFQT which predicts an applicant's trainability. The DOD 
established Test Score Categories to predict the trainability of 
applicants. Statistics have shown that soldiers who score in the top 
half of the AFQT are more likely to complete training and perform well 
at his/her MOS. It is not a predictor of intangible traits such as 
leadership, motivation, character, etc. which also determine long-term 
success in the military.
    There are several studies that have drawn a correlation between the 
AFQT and job performance. Two examples are listed below:
          Bruce R. Orvis, Michael Childress, J. Michael Polich, Effect 
        of Personnel Quality on the Performance of Patriot Air Defense 
        System Operators (RAND Corporation, 1989); and
          John D. Winkler, Judith C. Fernandez, J. Michael Polich, 
        Effect of Aptitude on the Performance of Army Communications 
        Operators (RAND Corporation, 1992).
                                 ______
                                 
            Questions Submitted by Senator Claire McCaskill
recruiter incentives; impropriety; and recruitment of ethnic minorities
    9. Senator McCaskill. General Bostick, Admiral Kilkenny, General 
Vautrinot, and General Tryon, I am concerned about what sort of 
incentives we provide recruiters for enlisting new recruits. 
Overzealous incentives could lead to overzealous, even improper 
recruiting. Can you clarify what incentives your Service offers 
recruiters for enlisting recruits?
    General Bostick. Recruiters are recognized for achievement and over 
achievement of their mission primarily through two programs. The United 
States Army Recruiting Command (USAREC) Recruiter Incentive Award 
Program allows a recruiter to earn points for their enlistments, 
recruiting support and retention efforts which are applied toward the 
award of various recognition items. A recruiter progresses through 
several levels of incentive awards that are easily recognized by their 
peers, encouraging camaraderie and pride in their accomplishments while 
assigned to a challenging and unfamiliar environment.
    An additional incentive, Recruiter Incentive Pay was created as one 
of four pilot programs under the 2006 National Defense Authorization 
Act's Recruiting Pilot Program legislation. It was implemented in June 
2006. This program awards a set dollar amount for achieving mission and 
overproducing on 1-month, 3-month cycles, and 12-month/annual cycles. 
USAREC has not identified increases in improprieties attributed to the 
ability to earn an additional monetary incentive under this pilot 
program.
    Admiral Kilkenny. The Navy has established awards and incentives to 
enhance morale, encourage friendly competition, and recognize superior 
performance of both teams and individuals for their contributions 
toward accomplishing the Navy's recruiting mission. Commander, Navy 
Recruiting Command establishes requirements for national-level 
production awards, while the subordinate commands manage their local 
award programs. The incentives available are generally designed to 
bolster the recruiters' sense of pride in a job well-done as opposed to 
a monetary award, although a recruiter may earn meritorious advancement 
for exceptional performance. Awards range from trinkets such as coffee 
mugs and plaques to letters of commendation and Navy medals.

          The recurring recognition item for enlisted recruiters is 
        the Gold Wreath, earned for achieving five new contracts or 
        Reserve gains in a 3-month period.
          The Recruiting ``R'' is awarded to Navy Recruiting Districts 
        that meet established criteria for the fiscal year. The top 
        districts are recognized as the Recruiting Districts of the 
        year.
          Recruiter of the Year nominees are identified by each 
        district using a point-based recruiter incentive system that 
        awards credit for each net contract and adds bonus points for 
        meeting recruiting priorities, quality standards and diversity. 
        A national awards board selects the Recruiters of the Year, who 
        receive a Navy Commendation Medal.
          The Recruiting Command Advancement Program provides 
        increased meritorious promotion opportunities for recruiters 
        working outside their rate and under stressful situations.
          Other awards for specific production achievements include:

                  Admiral's Accelerator Award - a personal letter from 
                the Admiral and command coin for significant 
                achievement in production of critical ratings;
                  Admiral's Five Star Award and Best Station in the 
                Nation - recognition in Navy Recruiter Magazine;
                  Centurion Award - a Navy sword and display stand for 
                recruiters who achieve 100 net new contracts during a 
                tour; and
                  Summer Heroes/Early Bird Award - Chief of Naval 
                Personnel (CNP) coin and letter of commendation 
                presented at a dinner with CNP for exceptional 
                production during the fiscal quarter.

    The Navy monitors both the local and national awards programs 
closely to ensure both fairness and equitability and no improper 
practices occur.
    General Vautrinot. The Air Force offers non-monetary incentives 
through an annual peer competition program which provides the complete 
foundation for recruiter initiative, enthusiasm, and esprit de corps. 
The purpose of our competition program is to motivate recruiters to 
meet or exceed the personal production goals which are set for them. 
This in turn enables their squadron to meet or exceed squadron 
production goals as it competes against other squadrons command-wide. 
We also include Air Force Military Entrance Processing Station (MEPS) 
liaisons in their own separate competition category. The individual and 
squadron top performers for each fiscal year are recognized at a formal 
awards banquet each October, where gold badges and silver badges are 
presented by the group commanders and the AFRS Commander. These badges 
may be worn on the recruiter's uniform as a reflection of their 
accomplishments, and they are highly coveted.
    Additionally, the 12 top recruiters in the command each year are 
designated ``Blue Suit'' winners. They and their spouses are the 
official guests of the AFRS Commander, Randolph Air Force Base, and the 
City of San Antonio for a week in March, where numerous local community 
organizations thank, honor, and entertain them.
    The annual production competition has proved to be an outstanding 
motivational incentive for Air Force recruiting. It has been 
instrumental to our longstanding success in achieving our accession 
requirements because it provides analytical indicators that allow 
commanders to identify and address production shortfalls, and it allows 
them to recognize recruiters that excel.
    General Tryon. The Marine Corps does not offer or provide direct 
incentives to our recruiters for enlisting applicants. While superior 
recruiting performance may be recognized through the presentation of 
awards, such as Navy and Marine Corps Achievement and Commendation 
Medals, or through meritorious promotions, they are tied to all aspects 
of recruiting or military service.

    10. Senator McCaskill. General Bostick, Admiral Kilkenny, General 
Vautrinot, and General Tryon, can you please provide the number of 
incidents of alleged recruiter impropriety in the past recruiting year 
and how many allegations were substantiated?
    General Bostick. In fiscal year 2007, our recruiting force of 
approximately 8,200 recruiters had roughly 6.9 million contacts with 
the public. There were 863 recruiting impropriety allegations made 
against recruiters assigned to U.S. Army Recruiting Command (USAREC) in 
fiscal year 2007. 121 of the 863 allegations were substantiated. There 
are 88 investigations still open, pending completion of the 
investigation or a substantiation determination.
    Admiral Kilkenny. In fiscal year 2007, 191 allegations of 
impropriety were made against Navy recruiters. This is compared against 
nearly 4,900 Total Force recruiters who accessed over 50,000 officers 
and enlisted personnel into the Active and Reserve components. The 191 
allegations comprise 51 instances of Misconduct (criminal misconduct, 
sexual misconduct, sexual harassment, and fraternization) and 140 
instances of Irregularities (efforts to conceal information, testing 
irregularities, false promises and quality control lapses).
    For fiscal year 2007 cases, 17 investigations have been completed, 
adjudicated and/or final reviewed. Nine of the 17 allegations were 
substantiated.
    General Vautrinot. The Air Force Recruiting Service has a zero-
tolerance policy and does not accept inappropriate conduct period. We 
are very proud of all of our Air Force recruiters but especially those 
who, during several television news hidden camera stories, were 
completely honest with reporters and provided accurate, forthright 
information.
    The Air Force has taken several recent measures to ensure its 
recruiters understand the seriousness of misconduct. Among these 
actions are memorandums from the Air Force Chief of Staff and the 
commander of Air Education and Training Commander, a 5-minute video 
from the AFRS commander discussing the effects, a ``Recruiter Pledge'' 
that each recruiter signs and displays in his/her work area, initial 
misconduct training that each recruiter receives at the Air Force 
Recruiter Course, and then annual training each receives during their 
squadron conference each fall.
    During fiscal year 2007, the Air Force investigated 40 recruiters 
for misconduct. Of those 40 cases, 17 were substantiated, including 6 
for unauthorized relationships with applicants (Note: Even consensual 
is not allowed per Air Force instruction). Other misconduct was for 
concealment or falsification of information or false promise/coercion.
    General Tryon. In fiscal year 2007, there were 212 applicant-
related alleged recruiter misconduct cases. Of those cases, 91 were 
substantiated, 59 were unsubstantiated, and 62 cases are still under 
investigation from fiscal year 2007.

    11. Senator McCaskill. General Bostick, Admiral Kilkenny, General 
Vautrinot, and General Tryon, how were the recruiters who committed the 
substantiated incidents of misconduct disciplined?
    General Bostick. In fiscal year 2007, 185 of the approximately 
8,200 on-production (uniformed) recruiters (2.3 percent) and 11 
civilian contract recruiters were involved in the 121 substantiated 
allegations. Disciplinary actions taken in these cases break out in the 
following manner from least severe to most severe:

------------------------------------------------------------------------
                                                              Recruiters
------------------------------------------------------------------------
Military recruiters:
  No Action Taken...........................................           6
  Verbal Reprimand/Counseling...............................           2
  Battalion (BN) Level Written Reprimand/Counseling.........          46
  Brigade (BDE) Level Written Reprimand/Counseling..........          56
  General Officer Level Written Reprimand...................          13
  Relief from Recruiting Duty...............................          24
  Non-Judicial Punishment (BN or BDE level).................          36
  Discharge in Lieu of Court-Martial........................           1
  Trial by Court-Martial....................................           1

Contract recruiters:
  No Action Taken...........................................           6
  Corporate Reprimand.......................................           4
  Termination of Employment.................................           1
------------------------------------------------------------------------

    In those cases where ``No Action Taken,'' the individual either 
departed the Army, departed the command on permanent change of station 
orders, or voluntarily left the employment of the parent corporation 
prior to or at the time of the substantiation decision.
    Admiral Kilkenny. In substantiated incidents of misconduct, 
offenders are dealt with through a variety of punitive, non-punitive, 
and administrative measures 22 percent of the time. These measures 
include adverse administrative actions (e.g., removal from recruiting 
duty and reassignment); non-judicial punishment (includes punishments 
such as fines, restriction, and reduction in grade); and courts-
martial. Other administrative actions (letters of instruction or extra 
military instruction) are used as corrective measures in the remaining 
78 percent of such incidents.
    General Vautrinot. Discipline/response incidents in 2007 included:

         Courts-martial Punishment (incarceration, Bad Conduct 
        Discharge from the Air Force);
         Non-judicial Punishment (reduction in rank, forfeiture of pay, 
        additional duty);
         Administrative Action (administrative discharge from the Air 
        Force, Letter of Reprimand); and
         Removal from recruiting duty.

    General Tryon. Of the 91 substantiated applicant-related alleged 
recruiter misconduct cases, 56 marines were removed from the recruiting 
environment or discharged from the Marine Corps. In 35 cases, the 
marines were disciplined administratively and remained on recruiting 
duty.

    12. Senator McCaskill. General Bostick, Admiral Kilkenny, General 
Vautrinot, and General Tryon, further, can you discuss the locations of 
the instances of alleged misconduct?
    General Bostick. USAREC has a very robust recruiting impropriety 
database that includes numerous data points, but it does not track the 
location of allegations. However, USAREC is able to state that 
recruiting improprieties occur in the recruiting stations, in 
government owned vehicles, in recruits' homes, and at Military Entrance 
Processing Stations.
    Admiral Kilkenny. There was no concentration of misconduct 
allegations in any single geographical area covering 1,300 recruiting 
stations and 26 Navy recruiting districts.
    General Vautrinot. Incidents occurred in a variety of locations to 
include Government-owned vehicle, restaurant, park, residence, and a 
recruiting office. However, there were no trends noted.
    General Tryon. Recruiter Irregularities are categorized into 
malpractice and misconduct. Malpractice consists of concealment, fraud, 
cheating on the ASVAB test, and making false promises. Misconduct 
infractions include criminal misconduct, sexual misconduct, or other 
such violations of the Uniform Code of Military Justice. Generally 
speaking, we have found that most malpractice cases and allegations 
involve actual paperwork and enlistment processing and, therefore, 
happen at the recruiting station. However, misconduct cases occur 
predominantly outside the workplace and outside normal business hours 
in public places, private residences, private or government vehicles, 
or even via text messages, email, or other electronic means.

    13. Senator McCaskill. General Bostick, Admiral Kilkenny, General 
Vautrinot, and General Tryon, do allegations derive primarily from 
recruiting station engagements or elsewhere?
    General Bostick. Without additional time to review all 121 
substantiated investigations, we are unable to completely discuss the 
locations of the instances of the alleged misconduct or answer whether 
the allegations derive primarily from recruiting station engagements. 
However, USAREC is able to state that recruiting improprieties occur in 
the recruiting stations, in Government-owned vehicles, in recruits' 
homes, and at Military Entrance Processing Stations.
    Admiral Kilkenny. Most alleged instances of impropriety are 
reported to have occurred at locations other than Recruiting Stations. 
Commonly cited locations include the recruiter's vehicle, the MEPS, the 
recruit's residence, and public sites such as malls, streets, or 
shopping areas.
    General Vautrinot. The vast majority are ``paperwork'' related and 
therefore occurred at recruiting offices or on government computers.
    General Tryon. As previously stated, over half applicant-related 
alleged cases are classified as malpractice which primarily occur at 
the recruiting station between the recruiter and applicant. The 
remaining misconduct cases occur in various locations through various 
means outside of the recruiting station (email text messages, driving 
in a vehicle, etc).

    14. Senator McCaskill. General Bostick, Admiral Kilkenny, General 
Vautrinot, and General Tryon, I have heard some anecdotal evidence that 
the wars in Iraq and Afghanistan have had a particular impact on 
minority recruiting. That is, some believe that minority propensity for 
service has reduced more substantially than overall propensity for 
service. Can you discuss how your minority recruiting is progressing, 
including a discussion of minority recruiting into combat arms and 
special operations specialties, and what you are doing to increase 
minority recruiting?
    General Bostick. The Army's goal is to be representative of the 
population from which we recruit. The Army has been very successful in 
this goal for the past few years with respect to the race/ethnic 
representation in our accessions cohorts. If we were to experience 
decreases in minority recruiting such that we were no longer 
representative of our market population, that would indicate the need 
for further action above our current efforts. The Army continuously 
monitors the race/ethnic makeup of our future soldiers at all levels of 
the recruiting command and takes action where necessary to assist 
subordinate units in their efforts to be representative of their 
markets. Often these actions are in the form of partnerships and 
outreach programs to minority organizations at the local, regional, 
and/or national levels.
    Minority enlistments continue to reflect the population. With 
African Americans composing approximately 14.6 percent of the qualified 
military youth, their enlistments accounted for just over 15.5 percent 
of the Army in 2007. Likewise, Hispanic youth comprise 12.7 percent of 
the eligible population and 12.4 percent of the enlistments. 
Comparatively, Caucasians comprise 67.1 percent of the eligible 
population and 67.1 percent of the enlistments.
    Within the Combat Support career division, the ethnic composition 
is balanced. It is within the Combat Arms, however, that minorities are 
less represented with a composition of 6 percent African American and 
10 percent Hispanic enlistments compared to 79 percent Caucasian 
(2007). However, within the Combat Service Support career division, 
minorities are over represented with 24 percent African American, 15 
percent Hispanic, and 56 percent Caucasian proportion of enlistments. 
This general representation has been relatively consistent for the past 
5 years.
    The imbalance within the aforementioned career divisions is 
pronounced within the special operations specialties of the Special 
Forces (Career Management Field 18) and the Ranger enlistment option. 
Minorities are under-represented; Caucasians account for roughly 88 
percent of the enlistments into these specialty fields.
    Admiral Kilkenny. Results from the latest youth poll from the Joint 
Advertising Market Research and Studies (JAMRS) indicate that 
propensity for serving in the Active Duty military significantly 
declined in 2006 and has remained unchanged in 2007. While the largest 
declines in propensity were seen for Hispanic and African American 
youth, the composite propensity for Active Duty is still significantly 
greater among these groups than it is among caucasian youth.
    Navy enlisted recruiting has been successful in reaching the 
diversity markets. Overall for fiscal year 2007, the diversity 
representation for Navy accessions was 21 percent African American, 21 
percent Asian, Pacific Islander, or Native American (API/NATAM), and 20 
percent Hispanic. This compares favorably to the demographic benchmark 
for the recruitable market (16 percent African American, 3 percent API/
NATAM, and 12 percent Hispanic). In the Navy Special Operations and 
Navy Special Warfare accessions (Navy Diver, Explosive Ordnance 
Disposal, Special Warfare Boat Operator, and Special Warfare Operator), 
African Americans (at 6 percent) were underrepresented, but API/NATAM 
(19 percent) and Hispanics (15 percent) were close to the overall 
representation.
    Officer Accessions for minorities have historically been more 
difficult to achieve than enlisted contracts. We continue to address 
that through a variety of actions to include closer engagement with 
affinity groups; partnering with the Naval Academy and other colleges/
universities, especially those with Naval Reserve Officers Training 
Corps programs; and closely monitoring and adjusting our marketing and 
advertising programs focused on Diversity Officer recruiting. However, 
there is no evidence to suggest the wars in Iraq and Afghanistan are 
having any additional measurable effect on Diversity Officer recruiting 
outside the normal historical challenges.
    General Vautrinot. Consistent with Headquarters Air Force-directed 
fiscal year 2007/2008 budget and manpower reductions, diversity 
marketing and outreach programs (i.e. civilian colleges) for line 
officer recruiting were curtailed in favor of meeting minimum enlisted 
accession and health professions requirements.

         - Air Force remains #1 among minorities as ``Service of 
        Choice,'' including African American
         - Air Force minority enlisted recruiting statistics remains 
        strong (see enclosed BBP)
         - Likelihood that African American youth (17-24 year olds) 
        want to serve is at decades low
         - The proportion of hispanics (69 percent) who report being 
        less likely to join the military because of the war on 
        terrorism has increased significantly in the past 6 months
         - An overwhelming 87 percent of black youth report being less 
        likely to join the military as a result of the war on terrorism
         - Likelihood that African American influencers (parents, 
        teachers, clergy, coaches, et cetera) would recommend military 
        service is at decades low
         - 73 percent of all youth (including minorities) are NOT 
        qualified to serve in military
         - Per national polls: military service is #1 ``trusted'' 
        profession and military officer is #4 respected professional 
        (The Harris Poll #77, August 1, 2007) . . . yet JAMRS polls 
        indicate African Americans value military service less than any 
        baseline or minority counterparts and have higher disagreement 
        with troops in Iraq (``proportion of white (50 percent) and 
        black (22 percent) youth who support Troops being in Iraq has 
        significantly decreased since June 2006'').
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    General Tryon. During fiscal year 2007, the Marine Corps accessed 
9.1 percent African-Americans and 17.1 percent Hispanics of our total 
force enlistments which was up from 8 percent and 15.7 percent 
respectively in fiscal year 2006. In fiscal year 2008 (through 22 Feb 
2008) we have accessed 9.8 percent African Americans and 16.7 percent 
Hispanics. According to the U.S. Census Bureau, the overall African 
American population in the United States is 12.4 percent and the 
overall Hispanic population in the United States is 14.8 percent. In 
regards to recruiting minority applicants into combat arms and special 
operations occupational fields, during fiscal year 2007 the Marine 
Corps assessed 4.0 percent African Americans and 13.1 percent Hispanic 
into Infantry and Reconnaissance Programs. Fiscal year-to-date we have 
assessed 5.0 percent African American and 14.2 percent Hispanic into 
those programs. Minority recruiting overall and within the Infantry and 
Reconnaissance Programs is showing improvement over last year's 
results. This trend is expected to continue. The Marine Corps continues 
to make greater inroads into the minority population through focused 
marketing and advertising efforts. This will be enhanced through 
increased awareness activities in television advertising, print 
advertising, and national event partnerships geared towards various 
minority populations. Examples of these events are major sporting 
events involving Historically Black Colleges and Universities, national 
leadership conferences, and diversity job fairs. The goal of this 
advertising and participation in these events is to increase awareness 
within the minority population of the benefits available to all young 
men and women through service in the Marine Corps.

                     army accessions organizations
    15. Senator McCaskill. General Bostick, I have become aware of a 
discussion within the Army about how it organizes its various 
accessions organizations. The Government Accountability Office, in a 
January 2007 report, found that the Army lacked a strategic plan for 
officer accessions and, further, that officer accessions programs are 
suffering from decentralization in organization and management. Your 
command is paired with the ROTC Cadet Command in the Army's Accessions 
Command. When the Army created Accessions Command, it is my 
understanding that it paired ROTC with Recruiting Command to create 
synergies between enlisted recruiting and ROTC officer recruiting, such 
as perhaps enabling ROTC to pass program drop-outs to Recruiting 
Command for potential enlistment. Please discuss how you have partnered 
with Cadet Command to achieve any such synergies and how many recruits 
have come to Recruiting Command from Cadet Command (please both discuss 
and provide specific numbers).
    General Bostick. The partnership between USAREC and U.S. Army Cadet 
Command to share referrals began in March 2001. Initially, this was a 
manual process where USAREC shared information with individual schools 
for ROTC referrals and Cadet Command shared information with local 
recruiting units when an individual either stopped out or dropped out 
of school. This process has now been automated. Since fiscal year 2006, 
over 24,000 leads have been shared between the 2 commands.

------------------------------------------------------------------------
                                                  Leads Shared
              Fiscal Year              ---------------------------------
                                             USAREC       Cadet Command
------------------------------------------------------------------------
2006..................................           7,148            4,956
2007..................................           5,341            3,470
2008..................................           2,175            1,339
------------------------------------------------------------------------


    16. Senator McCaskill. General Bostick, do you believe there are 
natural synergies between enlisted recruiting and ROTC officer 
recruiting or do these two missions differ substantially?
    General Bostick. There are synergies shared by all recruiting 
efforts. However, the focus and qualifications for the individual being 
recruited are generally different in the enlisted and officer 
specialties. USAREC focuses its effort on the men and women seeking to 
join the Army's enlisted ranks within the next 12 months. The United 
States Army Cadet Command places emphasis on those seeking to join the 
Army's officer ranks in the next 2 to 4 years. There are synergies, 
areas where we are able to work together for the benefit of both 
commands, but the missions are substantially different.

    17. Senator McCaskill. General Bostick, in your personal and 
professional view, would moving Cadet Command out of Accessions Command 
have any negative impact on Recruiting Command? If so, what would that 
impact be?
    General Bostick. The potential impacts of any reorganization are 
unclear. There are a number of ongoing studies and reviews of the 
Army's organizational structure. The Army will be in a better position 
to determine the most effective organizational structure to accomplish 
its recruiting and accession missions guided by the results of these 
reviews.

                  waivers and officer candidate school
    18. Senator McCaskill. General Bostick, in recent years, the Army 
has issued an increasing number of moral waivers to recruits. Can you 
please provide by month how many waivers were granted in the 2006, 
2007, and so far in the 2008 recruiting years?
    General Bostick. Please see the chart below for monthly waiver data 
for regular Army Non-Prior Service recruits. Note: Prior to fiscal year 
2007, we have limited ability to differentiate between Misdemeanors and 
Serious Misdemeanors.

----------------------------------------------------------------------------------------------------------------
                                      2005                                2006
       Fiscal Year 2006        -----------------------------------------------------------------------   Total
                                Oct.  Nov.  Dec.  Jan.  Feb.  Mar.  Apr.  May  June  July  Aug.  Sep.
----------------------------------------------------------------------------------------------------------------
Misdemeanor...................   416   533     5   619   535   465   518  486   574   514   814   615      6,095
Felony........................    49    81     1   109    89    75    96   96   146    87   167   102      1,098
----------------------------------------------------------------------------------------------------------------


----------------------------------------------------------------------------------------------------------------
                                      2006                                2006
       Fiscal Year 2007        -----------------------------------------------------------------------   Total
                                Oct.  Nov.  Dec.  Jan.  Feb.  Mar.  Apr.  May  June  July  Aug.  Sep.
----------------------------------------------------------------------------------------------------------------
Misdemeanor...................   517   669     1   966   697   618   589  547   486   672   702   802      7,266
Felony........................   103   113     0   229   118   141   120  139   149   151   152   162      1,582
Serious Misdemeanor...........     0     0     0     1    18    26    17   19    14    12    29    29        165
----------------------------------------------------------------------------------------------------------------


------------------------------------------------------------------------
                                            2007         2008
          Fiscal Year 2008           -------------------------   Total
                                      Oct.  Nov.  Dec.   Jan.
------------------------------------------------------------------------
Misdemeanor.........................   453   518     3    895      1,869
Felony..............................    74   102     1    142        319
Serious Misdemeanor.................    22    22     0     47         91
------------------------------------------------------------------------


    19. Senator McCaskill. General Bostick, in your opinion, how do 
recruits who are granted these waivers compare to those who do not 
require them?
    General Bostick. Recent Army analysis of the fiscal year 2003-
fiscal year 2006 cohorts has shown that soldiers granted conduct 
waivers performed comparable to, and in some cases better, than those 
soldiers who enlisted without waivers. In this particular study they 
reenlisted at a higher rate and received valorous awards at a higher 
rate than those soldiers who did not receive conduct waivers. 
Additionally, for infantry soldiers, it showed that soldiers who 
received conduct waivers were promoted to sergeant approximately 4 
months sooner. In general, these soldiers have higher test scores on 
the ASVAB and higher high school graduation rates. Those granted 
conduct waivers did have slightly higher adverse loss and misconduct 
rates. There are ongoing studies to access the long-term performance of 
soldiers requiring a conduct waiver.

    20. Senator McCaskill. General Bostick, I am aware that Recruiting 
Command has accessed an increasing number of candidates into Officer 
Candidate School (OCS). OCS accessions have increased from 9 percent of 
officer accessions in 1995 to 40 percent of accessions in 2008. In 
2002, OCS accessions had increased to 20 percent of total officer 
accessions. This indicates that the drastic increase in OCS accessions 
cannot be written off to requirements associated with the increase in 
size of the Army. Further, it is my understanding that nearly half of 
the 40 percent of OCS officer accessions are attributable to the 
enlistment option. Please indicate how many enlistment option OCS 
candidates the Army Recruiting Command has enlisted in each year since 
2000?
    General Bostick. Since fiscal year 2000 to today, the USAREC has 
enlisted 5,555 OCS candidates.

------------------------------------------------------------------------
                      Fiscal Year                        OCS Candidates
------------------------------------------------------------------------
2000..................................................               230
2001..................................................               366
2002..................................................               655
2003..................................................               625
2004..................................................               350
2005..................................................               685
2006..................................................             1,092
2007..................................................             1,185
2008 YTD..............................................               367
------------------------------------------------------------------------


    21. Senator McCaskill. General Bostick, how has the increasing 
number of enlistment option candidates affected the quality of the 
overall enlisted recruiting pool?
    General Bostick. OCS candidates increase the overall quality of the 
enlisted recruiting pool. Regular Army soldiers enlisting for OCS 
require a Bachelor's Degree. Those Army Reserve soldiers enlisting for 
OCS must be in their senior year of college. These men and women 
undergo a competitive selection board process to determine whether or 
not they will be allowed to enter the Army under the OCS enlistment 
option.

    22. Senator McCaskill. General Bostick, what sort of burden has 
this placed on recruiters to recruit more soldiers who will remain 
enlisted?
    General Bostick. USAREC is given requirements for OCS candidates by 
the Department of the Army based on the Army's needs. There is no 
additional burden on recruiters as these soldiers are counted against 
our regular Army annual mission of 80,000 and Army Reserve annual 
mission of 26,500.
                                 ______
                                 
            Questions Submitted by Senator Lindsey O. Graham
                 recruiting mental health professionals
    23. Senator Graham. General Bostick, Admiral Kilkenny, General 
Vautrinot, and General Tryon, the DOD Task Force on Mental Health, as 
well as the Army's studies of mental health needs of soldiers deployed 
to Iraq, all found evidence that embedding mental health providers 
within units is crucial to the psychological health of servicemembers. 
Coupled with post-traumatic stress disorder, traumatic brain injury, 
and the needs of family members under stress, the need for mental 
health professionals to support the military has increased 
significantly.
    Recognizing that the military competes with a limited supply of 
qualified mental health care professionals in the country today, have 
the military departments developed incentives to recruit and train 
mental health professionals in uniform?
    General Bostick. Yes, the Army offers several programs to recruit 
and train mental health professionals in uniform. The Clinical 
Psychology Internship Program is a post-doctorate program available for 
30 interns per year and is required for State licensure. Participants 
are on Active Duty during this program and incur an additional Active 
Duty service obligation. The Health Professions Scholarship Program is 
available for students pursuing a doctorate in Clinical Psychology in 
exchange for an Active Duty service obligation. This scholarship 
program pays an additional stipend of $1,605/month. The Masters of 
Social Work program is a newly established program at the U.S. Army 
Medical Department's (AMEDD) Center and School in affiliation with 
Fayetteville State University. This program will accommodate up to 25 
students per year starting in academic year 2008. The Uniformed 
Services University of the Health Sciences offers a Clinical Psychology 
Training Program and has introduced a new Adult Psychiatric Mental 
Health Nurse Practitioner Program (PMH-NP). PHM-NP is a 24-month, full-
time program beginning in academic year 2008; Army allocations are 
still to be determined. Participants are on Active Duty during these 
programs and incur additional Active Duty service obligations.
    Admiral Kilkenny. The Navy does offer incentives to recruit mental 
health care professionals, both as direct accessions and to train them 
in student programs. The incentives vary based on the mental health 
specialty.
    Psychiatrists are now eligible to receive a $175,000 accession 
bonus and may participate in the Health Professions Loan Repayment 
Program (HPLRP). They also may be eligible for certain specialty pays 
while on Active Duty. Civilian Psychiatric residents are eligible to 
participate in the Financial Assistance Plan, where they receive a 
monthly stipend--currently $1,605 and growing to $1,907 later this 
year--and an annual grant up to $28,454 currently, but scheduled to 
increase to $45,000 on July 1, 2008. The minimum Active Duty obligation 
for participating in Financial Assistance Plan is 3 years.
    Mental Health Nurses are eligible for up to a $30,000 accession 
bonus depending on the length of their commitment, may participate in 
the HPLRP, and are eligible to receive Board Certification Pay. Once on 
Active Duty, nurses are eligible to be sent to a civilian Master's 
program for Mental Health Nurse Practitioners or Clinical Nurse 
Specialists in the Duty Under Instruction program.
    Psychologists and Social Workers are not authorized an accession 
bonus, but may participate in the HPLRP and receive Board Certification 
Pay.
    The Navy has both a military psychiatrist residency and a clinical 
psychologist internship training program.
    General Vautrinot. The Air Force has established recruitment and 
retention bonuses for many career fields including mental health 
professionals. Additionally, we have submitted several proposals for 
our most difficult-to-fill requirements. While full funding of 
recruitment and retention programs would help us retain the right mix 
and number of providers and technicians, we continue to compete with 
our DOD sister Services, other government health agencies, and private 
sector counterparts for very limited national pool of highly-trained 
health care personnel resources.
    Section 335 of U.S.C. 37, chapter 5, is a revision per National 
Defense Authorization Act (NDAA) for Fiscal Year 2008 and may authorize 
the additional pay required to recruit and retain qualified mental 
health professionals. Supplemental authorities like the Critical Skills 
Accession Bonus (CSAB) for psychiatrists and the Critical Skills 
Retention Bonus (CSRB) for clinical psychologists do exist but the 
absence of supplemental funding makes them difficult to implement. The 
Air Force fully supports, as funding allows, all available special and 
incentive pays currently authorized. In order to implement new pay 
authorities and provide increases in special pay where necessary, we 
have garnered an additional $65 million in fiscal year 2009 and across 
the Future Years Defense Plan through the Air Force Chief of Staff 
Initiative.
    Below is a summary regarding each of the primary mental health care 
professional career fields in the Air Force.
Clinical Psychologists
    Licensed clinical psychologist recruiting and retention remains 
extremely difficult. The Psychology Residency Accession Program is the 
primary means of recruiting, but only 11 of 23 psychology residency 
quotas for academic year 2007-2008 were filled. We anticipate a 
``bathtub'' effect in the future since the residency training pipeline 
and licensure process takes a minimum of 2 years. Fully qualified 
psychologists' recruiting is even more difficult. In the past 5 years, 
only seven fully qualified psychologists were accessed into the Air 
Force. Clearly, psychologists require monetary recruitment and 
retention incentives.
    Recruitment incentives for psychologists are moderate with a 
limited number of Accession HPLRP quotas available to fully licensed 
psychologists, and a limited number of Health Professions Scholarship 
Program quotas for students pursuing studies in clinical psychology. To 
increase the recruitment of fully qualified personnel, an accession 
bonus for clinical psychologists is recommended.
    Currently, a CSRB of $30,000 is offered to psychologists in the 4-
6-year time in commissioned service group for a 3-year commitment. Take 
rates for the CSRB are high, but the monetary amount may be too small 
and the number of personnel in the appropriate year group may be too 
limited to have a significant retention impact.
Social Workers
    The Air Force Chief Consultant for Social Work has initiated a 
direct working relationship with Recruiting Services and manning has 
improved significantly from 75 percent in summer 2006 to 101 percent 
currently. Although current manning is good, it may be beneficial to 
obtain authorization for special and incentive pays for social workers 
due to the increasing demands on Mental Health providers, Mental Health 
Nurses, and Mental Health Nurse Practitioners.
    All nurses are currently authorized incentive special pay (ISP) by 
law, although in fiscal year 2008 funding constraints did not allow the 
Air Force to initiate this special pay. Adequate funding is anticipated 
to support the nurse ISP in fiscal year 2009, and the Air Force intends 
to start the ISP for nurses in beginning in fiscal year 2009.
Psychiatry
    The current number of AD psychiatrists closely matches the number 
of authorized billets but the demand for psychiatric services both at 
home and in the deployed environment is increasing. Total psychiatry 
manning is 98 percent. Current manning of fully qualified psychiatrists 
is at 64 percent with 48 psychiatry residents in training at this time.
    The Multi-Year Special Pay amounts were increased this year to a 
maximum of $75,000 in conjunction with the Tri-Service Health 
Professions Incentive Working Group. Although authorized, the Air Force 
was unable to offer the CSAB to Psychiatrists in fiscal year 2008 due 
to funding limitations.
    General Tryon. Question not applicable to the Marine Corps.

    24. Senator Graham. General Bostick, Admiral Kilkenny, General 
Vautrinot, and General Tryon, are incentives that are specific to 
mental health professionals needed? If so, what are the monetary as 
well as non-monetary incentives that are needed?
    General Bostick. The military competes within a market that suffers 
from shortages of qualified mental health professionals. Incentives 
specific to mental health are needed to recruit and retain these 
professionals in the Army. Licensed Clinical Psychologists are offered 
the CSRB at a rate of $13,000/year for 2 years or $25,000/year for 3 
years. The HPLRP is available for the accessions of 5 clinical 
psychologists and the retention of 20 clinical psychologists at the 
rate of $38,437/year. The Health Professions Scholarship Program is 
available to students pursuing a doctorate in Clinical Psychology in 
exchange for an Active Duty service obligation. Social Workers in the 
rank of Captain are offered the Army CSRB at the rate of $25,000 for a 
3-year Active Duty service obligation. The HPLRP is available for the 
accessions of 5 social workers and the retention of 20 clinical 
psychologists at the rate of $38,437/year. A Masters of Social Work 
program has been established at the AMEDD Center and School in 
affiliation with Fayetteville State University. The program will 
accommodate up to 25 students per year starting in academic year 2008. 
Psychiatric Nurses and Psychiatric Nurse Practitioners are authorized 
to receive Registered Nurse Incentive Special Pay at a rate of $5,000/
year for 1 year, $10,000/year for 2 years, $15,000/year for 3 years, 
and $20,000/year for 4 years. The Uniformed Services University of 
Health Sciences has introduced a new Adult PMH-NP. PHM-NP is a 24-
month, full time program beginning in Academic Year 2008; Army 
allocations are still to be determined. Psychiatrists who execute a 
multi-year special pay contract (extending their Active Duty service 
obligation) are paid at the rates of $17,000/year for a 2-year 
contract, $25,000/year for a 3-year contract, and $33,000/year for a 4-
year contract. The Critical Wartime Skills Accession Bonus is approved 
(pending funding) as a lump sum bonus of $175,000 for 10 psychiatrists 
in return for a 4-year Active Duty service obligation.
    Admiral Kilkenny. The NDAA for Fiscal Year 2008 provided authority 
to pay a bonus to members for referring recruits who enter Navy health 
professions. We are hopeful that this type of incentive will increase 
the number of leads for these programs and improve our recruiting 
success.
    Because of the limited supply of qualified mental health care 
professionals, specific incentives are needed to get them to choose the 
Navy. The Navy's Clinical Psychologists community is in a challenging 
situation, with current manning at only 79 percent and retention rates 
falling due to high deployment during the global war on terrorism. 
Section 604 of the National Defense Authorization Request for Fiscal 
Year 2009 would authorize an accession bonus up to $70,000 for fully 
trained and licensed psychologists. This is necessary to meet the near-
term billet growth, replace losses, and supplement the Internship 
Program. Your support for this authority will be a key contribution to 
our future success.
    The current authority for accession and retention incentives for 
Psychiatrists is adequate. The Psychiatry multi-year special pay has 
increased $8,000 each of the past 2 fiscal years and will be evaluated 
again for fiscal year 2009 by OSD/HA. NDAA 2007 authorized a Critical 
Wartime Skills Accession Bonus (CWSAB). The fiscal year 2008 CWSAB for 
Psychiatrists is $175,000 for a 4-year commitment. This rate will be 
revaluated for fiscal year 2009 by OSD/HA.
    We will continue to evaluate areas where we need help meeting the 
increasing demand for mental health professionals. As we identify new 
tools and incentives we will include them in future authorization 
requests.
    General Vautrinot. Yes, incentives are needed to effectively 
recruit all health professionals. Certainly with the types of mental 
health diagnoses resulting from current combat operations, the Air 
Force Medical Service's manning requirements for mental health 
professionals is very likely to increase. There are a number of 
monetary and non-monetary incentives that would assist these recruiting 
efforts. Psychiatrists and clinical psychologists have concerns about 
military providers making significantly less than their civilian 
counterparts. We need a ``Critical Wartime Skills'' accession bonus not 
only for psychiatrists, but for all types of mental health providers; 
and in order for this bonus to be most effective, we need legislation 
that allows the bonus to be offered concurrently with multi-year 
specialty pay. Additionally, the closing and realigning of major 
medical facilities and the condition of current facilities has raised 
questions about the future and stability of the military medical 
system. Legislation that authorizes and appropriates funds to secure, 
stabilize, and upgrade military mental health treatment facilities will 
ease potential applicant's fears concerning the military work 
environment.
    With respect to non-monetary incentives, we need congressional help 
for relief concerning the time delay between application and accession; 
we lose a number of qualified applicants during this period because 
they get ``turned off'' to the seemingly endless military bureaucracy. 
They are motivated and excited to enter the Air Force and understand 
that we need and want their skills, but then it takes several months to 
get them through the Regular Officer Appointment Scroll approval 
process, and they become disenchanted. Per SAF/GCM, a 2005 Department 
of Justice ruling stipulated that direct appointment of regular field 
grade officers cannot be delegated lower than Department Secretaries. 
However, Congress has yet to take advantage of this ruling, and field 
grade approval still resides with the President, followed by Senate 
confirmation. Congress could greatly assist recruiting by enacting 
legislation to delegate scroll approval authority from the Senate to 
the Secretary of Defense for Health Professions regular officer 
candidates seeking the rank of Major and Lieutenant Colonel (O-4 and O-
5). Delegation of this authority alone would reduce the process by 2 to 
3 months. Of note, appointment scrolls for regular company grade 
officers as well as all Reserve officers through the grade of O-5 are 
currently approved at the Secretary of Defense level.
    General Tryon. Question not applicable to the Marine Corps.
                                 ______
                                 
             Questions Submitted by Senator Saxby Chambliss
                  viability of the all-volunteer force
    25. Senator Chambliss. General Bostick and Sergeant Webb, it is my 
understanding that the Army has established several recruiting and 
marketing programs to ensure the viability of the All-Volunteer Force. 
One such program--The Sky Soldier Air Show Recruiting Program--is a 
program that produces leads for recruiters while leveraging industry 
and veteran organizations. Based on the desire to preserve the All-
Volunteer Force, I would appreciate your views on what are the benefits 
of such programs?
    General Bostick and Sergeant Webb. The value varies by program. 
Those that perform the best place the Army and its soldiers front and 
center with the prospects and influencers that attend the various 
venues we choose to participate in. We do this through the use of 
experiential displays that provide the opportunity for interaction with 
high-tech savvy soldiers roughly the same age as those men and women in 
our target market as well as those that influence them on a daily basis 
(parents, friends, et cetera). These face-to-face interactions not only 
provide leads for recruiters to contact, but also increased 
information/knowledge about what the Army has to offer as a viable 
option for their future.

    26. Senator Graham. General Bostick and Sergeant Webb, how does the 
Army specifically address the viability of such programs, in 
consultation with management teams of these organizations, to verify 
information related to the return on investment of these programs with 
respect to market penetration, accrual of leads, cost, the impact on 
propensity of attendees, and the immediate or long-term impact on 
prospects and influencers?
    General Bostick and Sergeant Webb. The Army addresses these topics/
items of information through our advertising agency (McCann Erickson) 
and its event marketing agency (Momentum). Each program is a 
subcontractor with the event marketing agency. The viability of each 
program is reviewed on a regular basis over the course of the period of 
execution through after action reviews upon the completion of each 
event. Copies are provided to various levels of the Army marketing 
organization for review and comment as well as to management within the 
specific program. At the end of each program's execution for the year a 
full after action review is conducted to review the program in its 
entirety.

    27. Senator Graham. General Bostick and Sergeant Webb, what 
procedures are in place for the Army to notify companies in the event 
the Army chooses to cancel or reduce funding for these types of 
programs?
    General Bostick and Sergeant Webb. Upon the completion of a program 
the Army and its event marketing agency conduct an assessment of the 
performance of program. That assessment is briefed to the appropriate 
level of Army leadership where a decision is made to continue, cancel, 
or reduce funding in these programs. Upon that decision being made a 
telephonic notification is executed with the program's management which 
is then followed up with written notification within 48-72 hours. That 
notification is executed by the event marketing agency as they are the 
organization with which the program is contracted with.

    [Whereupon, at 11:14 a.m., the subcommittee adjourned.]

                                 <all>

</pre></body></html>
